<html>
<title> - TRACKING INTERNATIONAL STUDENTS IN HIGHER EDUCATION: A PROGRESS REPORT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





TRACKING INTERNATIONAL STUDENTS IN HIGHER EDUCATION: A PROGRESS REPORT

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                and the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             March 17, 2005

                               __________

                            Serial No. 109-5

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-425                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Jon C. Porter, Nevada Vice Chairman  Dale E. Kildee, Michigan
John A. Boehner, Ohio                Donald M. Payne, New Jersey
Thomas E. Petri, Wisconsin           Carolyn McCarthy, New York
Michael N. Castle, Delaware          John F. Tierney, Massachusetts
Sam Johnson, Texas                   Ron Kind, Wisconsin
Vernon J. Ehlers, Michigan           David Wu, Oregon
Patrick J. Tiberi, Ohio              Rush D. Holt, New Jersey
Ric Keller, Florida                  Betty McCollum, Minnesota
Tom Osborne, Nebraska                Chris Van Hollen, Maryland
Bob Inglis, South Carolina           Tim Ryan, Ohio
Cathy McMorris, Washington           Robert C. ``Bobby'' Scott, 
Tom Price, Georgia                       Virginia
Luis G. Fortuno, Puerto Rico         Susan A. Davis, California
Charles W. Boustany, Jr., Louisiana  Timothy H. Bishop, New York
Virginia Foxx, North Carolina        John Barrow, Georgia
Thelma D. Drake, Virginia            Major R. Owens, New York
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
                                 ------                                

              <plus-minus>SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 17, 2005...................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Member, Subcommittee on Select 
      Education, Committee on Education and the Workforce........    47
        Prepared statement of....................................    48
    Kildee, Hon. Dale E., Ranking Member, Subcommittee on 21st 
      Century Competitiveness, Committee on Education and the 
      Workforce..................................................     4
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     2
        Prepared statement of....................................     3
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........    45
        Prepared statement of....................................    46

Statement of Witnesses:
    Bell, Lawrence, Director, Office of International Education, 
      University of Colorado, Boulder, CO........................    50
        Prepared statement of....................................    52
    Cerda, Victor X., Counsel to the Assistant Secretary, 
      Immigration and Customs Enforcement, U.S. Department of 
      Homeland Security, Washington, DC..........................     6
        Prepared statement of....................................     9
    Edson, Stephen A., Managing Director of the Visa Services 
      Directorate, Bureau of Consular Affairs, U.S. Department of 
      State, Washington, DC......................................    15
        Prepared statement of....................................    17
    Hite, Randolph C., Director, Information Technology 
      Architecture and Systems Issues, U.S. Government 
      Accountability Office, Washington, DC......................    20
        Prepared statement of....................................    22
    Mote, Dr. C.D., Jr., President, University of Maryland, 
      College Park, MD...........................................    58
        Prepared statement of....................................    60


 
 TRACKING INTERNATIONAL STUDENTS IN HIGHER EDUCATION: A PROGRESS REPORT

                              ----------                              


                        Thursday, March 17, 2005

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittees met, pursuant to notice, at 10:06 a.m., 
in room 2175, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon [Chairman of the Subcommittee on 21st Century 
Competitiveness] presiding.
    Present: Representatives McKeon, Petri, Tiberi, Price, 
Drake, Kuhl, Kildee, Kind, Wu, Holt, McCollum, Van Hollen, and 
Hinojosa.
    Staff present: Jennifer Daniels, Communications Staff 
Assistant; Kevin Frank, Professional Staff Member; Sally 
Lovejoy, Director of Education and Human Resources Policy; 
Catharine Meyer, Legislative Assistant; Krisann Pearce, Deputy 
Director of Education and Human Resources Policy; Amy Raaf, 
Professional Staff Member; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Jo-Marie St. Martin, General Counsel; 
Brad Thomas, Legislative Assistant; Ricardo Martinez, Minority 
Legislative Associate/Education; Alex Nock, Minority 
Legislative Associate/Education; and Joe Novotny, Minority 
Legislative Staff/Education.
    Chairman McKeon. A quorum being present, the joint hearing 
of the Subcommittee on 21st Century Competitiveness and the 
Subcommittee on Select Education will come to order. I think, 
given the gravity of what's going on down the hall, it's 
fortunate that we all made it through the crowds to get here. I 
don't know what's most important, but I'm glad we're here to 
talk about something substantive.
    I'd like to thank my colleague from Ohio, the chairman of 
the Subcommittee on Select Education, Mr. Tiberi, for agreeing 
to hold this joint hearing on ``Tracking International Students 
in Higher Education: A Progress Report.''
    So we can get to our witnesses, we've agreed to limit the 
opening statements to the chairmen and the Ranking Minority 
Members of each Subcommittee. With that, I ask unanimous 
consent that the record remain open 14 days to allow members to 
insert extraneous material into the official hearing record. 
Without objection, so ordered.
    I'll now read my opening statement.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    I want to welcome our witnesses here today and thank them 
for taking the time to appear before the Subcommittees. This 
hearing represents an important opportunity for us to learn 
about the progress in implementation of systems that exist to 
help monitor international students attending post-secondary 
institutions in the United States, as well as to understand the 
challenges that remain.
    Following the September 11, 2001 attacks on the United 
States, concerns were raised about the conditions under which 
individuals enter the country using a student visa. The 
Subcommittees on Select Education and on 21st Century 
Competitiveness held two joint Subcommittee hearings to gain 
insight into the rules and requirements of tracking foreign 
students and to learn about the implementation of the Student 
and Exchange Visitor Information System, called SEVIS. As an 
Internet-based system, SEVIS sought to address some of the 
shortcomings of the old paper-based system and increase 
information sharing between agencies and schools involved in 
the monitoring of foreign students.
    Our previous hearings were very informative, and we learned 
a great deal about the process that an international student 
wanting to study in the United States goes through to obtain a 
student visa. We also learned about the shortcomings of the old 
student visa system and began to learn about the SEVIS system 
which was being implemented at that time.
    Those hearings made clear to me the importance of 
continuing the exchange of ideas and cultures through 
international education while balancing our need for an 
accurate and timely screening process for protecting the safety 
and security of our citizens.
    Today, the purpose of our hearing is to learn more about 
the SEVIS program, what its capabilities are, and what still 
needs to be done to ensure a smooth transition for foreign 
students studying in the United States.
    With the creation of the Department of Homeland Security, 
the responsibility of establishing visa policy and reviewing 
its implementation was moved from the State Department to DHS. 
Within the DHS, the Immigration and Naturalization Service 
(INS) was also restructured, and responsibility for SEVIS was 
moved to the new Bureau of Immigration and Customs Enforcement 
(ICE), which works with the State Department to implement 
student visa policy.
    I have heard accounts of a decline in the number of foreign 
students applying for admission into our universities. We have 
the best higher education system in the world, due in part to 
bringing the best and brightest of other countries here to 
exchange ideas with our students. We want to preserve this flow 
of information and culture while maintaining adequate 
safeguards to report and monitor these students.
    I'm glad that we have witnesses from both the DHS and the 
State Department to learn more about how the process has been 
thus far, and learn what problems may still exist. We also have 
the Government Accountability Office, the GAO here to talk 
about some of the reports they have done to look into the 
processing of international student visa applications.
    I look forward to hearing our witnesses here today, and I 
thank you all for joining us to discuss this important topic.
    I now recognize my good friend, the Ranking Minority Member 
of the Subcommittee on 21st Century Competitiveness, Mr. 
Kildee, for his opening statement.
    [The prepared statement of Chairman McKeon follows:]

Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, Subcommittee on 
 21st Century Competitiveness, Committee on Education and the Workforce

    I want to welcome our witnesses here today and thank them for 
taking the time to appear before the subcommittees. This hearing 
represents an important opportunity for us to learn about the progress 
in implementation of systems that exist to help monitor international 
students attending postsecondary institutions in the United States, as 
well as to understand challenges that remain.
    Following the September 11, 2001 attacks on the United States, 
concerns were raised about the conditions under which individuals enter 
the country using a student visa. The subcommittees on Select Education 
and on 21st Century Competitiveness held two joint subcommittee 
hearings to gain insight into the rules and requirements of tracking 
foreign students and to learn about the implementation of the Student 
and Exchange Visitor Information System, called SEVIS. As an Internet-
based system, SEVIS sought to address some of the shortcomings of the 
old paper based system and increase information sharing between 
agencies and schools involved in the monitoring of foreign students.
    Our previous hearings were very informative and we learned a great 
deal about the process that an international student wanting to study 
in the United States goes through to obtain a student visa. We also 
learned about the shortcomings of the old student visa system, and 
began to learn about the SEVIS system which was being implemented at 
that time.
    Those hearings made clear to me the importance of continuing the 
exchange of ideas and cultures through international education while 
balancing our need for an accurate and timely screening process for 
protecting the safety and security of our citizens.
    Today, the purpose of our hearing is to learn more about the SEVIS 
program; what its capabilities are; and what still needs to be done to 
ensure a smooth transition for foreign students studying in the United 
States.
    With the creation of the Department of Homeland Security, the 
responsibility of establishing visa policy and reviewing its 
implementation was moved from the State Department to DHS. Within DHS, 
the Immigration and Naturalization Service (INS) was also restructured, 
and responsibility for SEVIS was moved to the new Bureau of Immigration 
and Customs Enforcement (ICE), which works with the State Department to 
implement student visa policy.
    I have heard accounts of a decline in the number of foreign 
students applying for admission into our universities. We have the best 
higher education system in the world, due in part to bringing the best 
and brightest of other countries here to exchange ideas with our 
students. We want to preserve this flow of information and culture 
while maintaining adequate safeguards to report and monitor these 
students.
    I am glad that we have witnesses from both DHS and the State 
Department to learn more about how the process has gone thus far and to 
learn what problems may still exist. We also have the Government 
Accountability Office (GAO) here to talk about some of the reports they 
have done to look into the processing of international student visa 
applications.
    I look forward to hearing our witness testimony here today, and I 
thank you all for joining us to discuss this important topic.
                                 ______
                                 

STATEMENT OF HON. DALE E. KILDEE, RANKING MEMBER, SUBCOMMITTEE 
ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Kildee. I thank you very much, Mr. Chairman, and thank 
you for this hearing today. I'm pleased to join you, Chairman 
Tiberi, Mr. Hinojosa, and other colleagues to these hearings on 
the SEVIS system and how it is impacting international studies. 
This is an important topic and deserves the attention of this 
Committee.
    International students attending schools in the United 
States make significant contributions to diversity and learning 
on our campuses. I had the occasion of talking with the 
president of the University of Michigan yesterday from Ann 
Arbor, where I did my graduate studies, and she was greatly 
pleased by the students from overseas, because they really 
enhance the educational environment there in Ann Arbor. So it's 
a very important thing.
    These same students also help our economy and develop 
businesses in our cities and towns. Those who return home after 
their studies become leaders in their own countries. In 
addition, they also bring a respect for democracy back to their 
countries, helping foster governmental stability and free and 
fair elections.
    Since 9/11, there's been a growing misperception overseas 
that the U.S. is not a welcoming place for academic 
international visitors. Proof of this misperception was made 
evident by the recent study of the Council of Graduate Schools. 
This study showed that once again there was a decline in the 
enrollment of international students in U.S. graduate schools. 
This trend is troubling and needs to be addressed.
    Fortunately, over the past year we have seen big 
improvements at the State Department and Department of Homeland 
Security in this area. These agencies have made great strides 
in streamlining the visa processing.
    We're going to hear about some of these improvements today, 
in addition to the work that still needs to be done. Our 
unfinished work in this area is critically important. We have 
to do more to counteract the misconceptions of the U.S. abroad. 
Those who are seeking to study in the fields of science and 
engineering are still facing major delays in receiving their 
visas because of security clearances.
    While these security clearances are critical for 
maintaining our safety, we have to redouble our efforts to 
process individuals more quickly. If we don't address these 
issues, increasing numbers of international students at the 
highest levels will look for academic opportunities outside the 
United States.
    Other countries are investing massive amounts of resources 
to develop and improve their systems of higher education. As 
these systems develop, international students will have 
increased post-secondary opportunities at home also.
    The potential impact on our institutions and our economy is 
huge if international students choose to attend institutions in 
their own country and not come here.
    I think the balance is very important. I had the great 
opportunity in 1958 and '59 of doing graduate work in Islamic 
history at the University of Peshawar in Pakistan under a 
Rotary Foundation fellowship. And that was a great help to me--
a great help, first of all, living in a different culture, a 
great culture, understanding real Islam. It's been helpful to 
me to this very, very day. And I think all of us benefit by 
having had some of that duality in our education both at home 
and then studying in another country, and we want to continue 
to encourage that. And I look forward to the hearing today.
    I yield back the balance of my time.
    Chairman McKeon. Thank you, Mr. Kildee. And we have served 
together now on this Committee for 12 years. You have been here 
a lot longer, but together we've served for 12 years and 10 
years on this Subcommittee, and I didn't know that you had 
studied abroad.
    [Laughter.]
    Chairman McKeon. We continually learn.
    Mr. Kildee. That's right.
    Chairman McKeon. And I'm impressed. I was at a meeting 
earlier this morning, and Mr. Davis, another member of our 
Committee, and I both spoke. We attended an earlier meeting 
where they were honoring some students that had done 
outstanding achievement, and I learned some things about Mr. 
Davis that I hadn't known. And I think it's--I continually am 
more impressed by my colleagues here when I learn more about 
them, and that's a good thing to know.
    We will have two panels today, and we decided earlier I 
will chair the first panel and Chairman Tiberi will chair the 
second panel. And he and Ranking Member Hinojosa will give 
their opening statements at that time.
    I'll introduce the first panel now at this time. First we 
have Mr. Victor Cerda. Mr. Cerda currently serves as Counsel to 
the Assistant Secretary for the U.S. Immigration and Customs 
Enforcement at the U.S. Department of Homeland Security.
    The Office of Immigration and Customs is responsible for 
identifying and shutting down vulnerabilities in the nation's 
border, economic, transportation and infrastructure security, 
and is also the largest investigative arm of the DHS.
    Next we'll have Mr. Stephen Edson. Mr. Edson currently 
serves as Managing Director of the Visa Services Directorate 
for the Bureau of Consular Affairs at the U.S. Department of 
State. Prior to his current position, Mr. Edson served as 
Senior Adviser for Strategic Planning to the Visa Services 
Directorate, as Consul General at the U.S. Embassy in Jakarta, 
Indonesia, and as Deputy Director of the Consular Systems 
Division in Washington.
    And then we'll hear from Mr. Randolph Hite. Mr. Hite has 
served for 25 years with the Government Accountability Office, 
or GAO, located here in Washington, D.C. In his current role, 
Mr. Hite serves as the Director of Information Technology 
Architecture and Systems Issues. In this capacity, Mr. Hite is 
responsible for the GAO's work on IT issues and maintenance, as 
well as the GAO's IT work at the Departments of Defense, 
Homeland Security, Treasury, State, and Justice.
    I should mention to the audience that accompanying Mr. Hite 
today is another staff member from the Government 
Accountability Office, Mr. Jess Ford, who serves as Director of 
International Affairs and Trade. While Mr. Ford will not be 
offering official testimony today, he will be contributing to 
this hearing by acting in a supportive capacity to Mr. Hite and 
the rest of the GAO team.
    We will follow our normal procedure of the 5-minute rule 
today. And the way these--I'm sure you've done this before, but 
when you start, the green light comes on, and when you have a 
minute left, the yellow light comes on, and at the drop dead 
time, the red light comes on. So don't worry too much about 
that.
    First, let's hear from Mr. Cerda.

    STATEMENT OF VICTOR X. CERDA, COUNSEL TO THE ASSISTANT 
SECRETARY, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT 
              OF HOMELAND SECURITY, WASHINGTON, DC

    Mr. Cerda. Good morning, Chairman McKeon and Chairman 
Tiberi and Members of the Committee. Thank you for the 
opportunity to provide you with an update on the Department of 
Homeland Security's progress on implementing the SEVIS program.
    The Student and Exchange Visitor Information System, know 
as SEVIS, was successfully deployed on time on January 1st, 
2003. Since then, SEVIS has been a central tool used by law 
enforcement entities, including ICE, to ensure compliance with 
immigration laws by foreign students, exchange visitors, 
schools, and exchange visitor sponsors. This achievement could 
not have been possible without the commitment and cooperation 
from the Department of State, the academic and the exchange 
community, and we are very grateful for that.
    Since representatives of the former Immigration and 
Naturalization Service last testified before you on September 
24th, 2002, DHS has fundamentally changed the process for 
monitoring foreign students and exchange visitors attending DHS 
certified schools and Department of State designated exchange 
visitor program sponsors in the United States.
    Prior to SEVIS, there was a decentralized manual, paper-
driven process that monitored foreign students attending more 
than 70,000 schools. There was in essence no tool capable of 
detecting the culprits of the first World Trade Center attack 
in 1993, for which a foreign student who had never attended 
school was convicted, and the terrorist attacks of September 
11th, 2001, where four of the 19 hijackers were foreign 
students.
    Despite the tremendous challenge, DHS, in cooperation with 
the Department of State, the academic community, and the 
exchange program sponsors, developed and successfully 
implemented SEVIS on January 1st, 2003, thus creating an 
electronic system that permitted the United States to monitor 
foreign students and exchange visitors and their dependents 
throughout their stay in the United States. Needless to say, 
this new capability enhanced our national security and ability 
to maintain integrity in our immigration system.
    In 2003, ICE took responsibility for SEVIS from U.S. 
Citizenship and Immigration Services and established the 
Student Exchange Visitor Program, SEVP. This program was 
created to manage SEVIS, to centralize the certification 
process for schools wishing to accept foreign students, to 
conduct outreach to the academic community, and to perform 
other related program functions.
    In addition, ICE established a Compliance Enforcement Unit 
in its Office of Investigations, which uses SEVIS data to 
identify and investigate potential student, exchange visitor, 
school and exchange visitor program sponsor violators. All of 
this work was completed by June 1st, 2003. By August 2003, all 
foreign students and exchange visitors were enrolled in SEVIS 
by their respective school or sponsor.
    More robust school screening requirements have essentially 
cleaned the list of schools that could issue the necessary I-20 
that initiates the process for an individual to enter the 
United States as a student. Gone are the days of the 
questionable dog grooming school that, despite no 
investigation, had the authority to sponsor individuals to 
enter the country. Of the 70,000 previously certified schools 
that existed pre-SEVIS, we have approximately 8,000 schools now 
that participate, and we believe this is due to the enhanced 
and centralized SEVP certification process, which requires a 
site visit and consistent reporting to SEVIS of changes in the 
student's status and performance at the institution. As a 
result, SEVIS data is more reliable and therefore more useful 
as an enforcement tool.
    The SEVIS system also creates an electronic, real-time, 
centralized repository of these records. Today, SEVIS is the 
only electronic system used to track the status of F, M and J 
non-immigrants from the moment they are accepted at the U.S. 
institution, through the completion of their program. As of 
February 25, 2005, 609,000 students, 142,000 exchange visitors 
and 120,000 of their dependents are registered in SEVIS. These 
individuals report to and are monitored by approximately 8,000 
certified schools and 1,400 exchange visitor program sponsors.
    Over a period of 2 years, we have effectively eliminated a 
vulnerable and archaic paper-based system of records and 
transitioned ton an electronic, interactive and an up-to-date 
system.
    In order to better understand the progress of SEVIS and its 
importance, I would like to share with the Committee some of 
the program's accomplishments:
    The implementation of the SEVIS Fee. On September 1st, 
2004, ICE implemented the SEVIS fee for students and exchange 
visitors successfully and on time. ICE established several fee 
payment mechanisms for the international education and exchange 
community. These payment options include credit card or debit 
card on line, check or money order mailed to a lockbox in the 
U.S., payment by a third party on the student or exchange 
visitor's behalf, and bulk filing for certain exchange visitor 
program sponsors. To date, we have collected over 170,000 fee 
payments and are not aware of a situation where a student 
wasn't able to ultimately pay the fee.
    Centralized and Enhanced School Certification. U.S. schools 
interested in accepting foreign students must be first 
certified by ICE. ICE has centralized that process and 
conducted onsite visits for the first time for these 
universities' exchange programs.
    Implementation of the SEVIS Response Team. In anticipation 
of the August 1st, 2003 deadline, we implemented the SRT to 
handle situations where students were appearing at the ports of 
entry but may not have had the opportunity to have the 
information clearly entered into SEVIS. We believe this was a 
success in facilitating on our side as well as the school's.
    IT Enhancements. The vast majority of these improvements 
were the result of feedback and requests from the schools and 
sponsors hosting foreign students. By the end of fiscal year 
2005, SEVIS implemented a total of 11 major releases to improve 
performance and functionality. This represents several hundred 
individual improvements. These improvements were recognized in 
May 2004 by the E-Gov Institute Government Solutions Center 
which selected SEVIS as a best practice system.
    Information Sharing. Clearly very important. We share all 
across DHS, Customs and Border Protection, the Department of 
State, the Federal Bureau of Investigation, U.S. Citizenship 
and Immigration Services. This information is critical for 
integrity not only in law enforcement but also to facilitate 
the visa process.
    Outreach to Academic Community. Without effective outreach 
to the academic community, we would not have been able to 
accomplish what we have today. We have been working to make 
several inroads with the universities through training, 
outreach, weekly meetings. We think this is an important part 
of the success.
    The ICE Compliance Enforcement Unit. The Enhanced Boarder 
Security and Visa Entry Reform Act of 2002 requires schools to 
report foreign students who fail to enroll within 30 days of 
the registration deadline. Schools are required to maintain 
accurate records and make this report to ICE. Additionally, 
SEVIS performs automatic data runs to identify students who 
have fallen out of status. These actions will cause a student's 
record in SEVIS to become terminated.
    The ICE Office of Investigations extracts data from SEVIS 
on the terminated records. Lookouts are entered on these 
terminated records to alert officers and inspectors within DOS, 
Customs and Border Protection, and USCIS of potential 
violations of the student's non-immigrant status. The CEU in 
investigations conducts a thorough review of each individually 
terminated record to identify those who have actually violated 
their status. After this review, actionable leads are 
identified and recorded and tracked electronically to ensure 
accountability.
    These reviews include record checks against several 
immigration and terrorist data bases. To date--
    Chairman McKeon. Mr. Cerda, how much more do you have 
there?
    Mr. Cerda. You mean--one minute, sir, just to comply.
    Chairman McKeon. OK.
    Mr. Cerda. To date, we've identified 81,000 potential 
violators, have entered 130,000 lookouts, and have assigned 
3,700 leads to the field, resulting in 641 arrests. To note 
some of these arrests, for example, a Saudi Arabian national 
who was investigated for failing to maintain his student 
status. After his arrival, he was identified as a potential 
extremist having possible links to a terrorist organization. He 
attempted to smuggle a 500,000 volt stun gun on board a 
commercial aircraft. This individual was identified through 
SEVIS and was deported.
    We continue to have many challenges ahead. We continue to 
look forward to develop this program and to create the proper 
balance that allows us to welcome students into the United 
States while at the same time maintaining the system that we 
believe ensures national security.
    Thank you, Chairman.
    [The prepared statement of Mr. Cerda follows:]

   Statement of Victor X. Cerda, Counsel to the Assistant Secretary, 
   Immigration and Customs Enforcement, U.S. Department of Homeland 
                        Security, Washington, DC

INTRODUCTION
    Chairmen McKeon and Tiberi, and Members of the Committee, thank you 
for the opportunity to provide you with an update on the progress the 
Department of Homeland Security (DHS) has made in implementing an 
effective system to monitor foreign students and exchange visitors in 
the United States and the schools and exchange visitor program sponsors 
that host them.
    The Student and Exchange Visitor Information System (SEVIS) was 
successfully deployed on time on January 1, 2003, as required by the 
Uniting and Strengthening America by Providing Appropriate Tools 
Required to Intercept and Obstruct Terrorism Act of 2001 (USA PATRIOT 
Act). Since then, SEVIS has been a central tool used by law enforcement 
entities officers to ensure compliance with immigration laws by foreign 
students, exchange visitors, schools and exchange visitor sponsors. 
This achievement could not have been possible without the commitment 
and cooperation from the academic and exchange community, for which we 
are very grateful. But there is much more to accomplish with SEVIS and 
we look forward to updating you on the recent successes and upcoming 
challenges that present us with further opportunities for growth and 
improvement.

BACKGROUND
    Since representatives of the former Immigration and Naturalization 
Service (INS) last testified before you on September 24, 2002, DHS has 
fundamentally changed the process for monitoring foreign students and 
exchange visitors on F, M and J visas attending DHS certified schools 
and Department of State (DOS) designated exchange visitor program 
sponsors in the United States.
    Prior to SEVIS, there was a decentralized, manual, paper-driven 
process that monitored foreign students attending more than 70,000 
schools. These schools were certified to accept foreign students 
through a decentralized process by district offices throughout the 
United States. There was, in essence, no tool that was capable of 
detecting the culprits of the first World Trade Center bombing in 1993, 
for which a foreign student who had never attended school was 
convicted, and the terrorist attacks of September 11, 2001, where four 
of the 19 hijackers were foreign students.
    Congressional response to these events resulted in legislation that 
mandated progress be made in the Federal government's ability to 
monitor the foreign student and exchange visitor population in the 
United States. These legislative mandates include: the Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRIRA) of 1996, 
which required the development of an electronic system for collecting 
information on foreign students and exchange visitors (F, M and J non-
immigrants); the USA PATRIOT Act of 2001, which established the January 
1, 2003 date by which SEVIS must be operational; the Homeland Security 
Act of 2002, which delegated responsibility of SEVIS to the U.S. 
Immigration and Customs Enforcement (ICE) and required that SEVIS 
information be used to carry out enforcement functions; and the 
Enhanced Border Security and Visa Entry Reform Act of 2002.
    Despite the tremendous challenge, DHS, in cooperation with DOS, 
developed and successfully implemented SEVIS on January 1, 2003, thus 
creating an electronic system that permitted the United States to 
monitor foreign students and exchange visitors and their dependents 
throughout their stay in the United States. Needless to say, this new 
capability enhanced our national security and ability to maintain 
integrity in our immigration system. As many of you know, SEVIS is a 
web-based system that provides real-time, up-to-date information on F, 
M and J visa holders that can be accessed electronically, making it an 
effective tool used by law enforcement to ensure that foreign students 
and exchange visitors in the United States are complying with the terms 
of their immigration status and are not a threat to national security.
    In 2003, ICE took responsibility for SEVIS from U.S. Citizenship 
and Immigration Services (USCIS) and established the Student and 
Exchange Visitor Program (SEVP). SEVP was created to manage SEVIS, to 
centralize the certification process for schools wishing to accept 
foreign students; to conduct outreach to the academic community; and to 
perform other related program functions. In addition, ICE established 
the Compliance Enforcement Unit (CEU) within its Office of 
Investigations, which uses SEVIS data to identify and investigate 
potential student, exchange visitor, school and exchange visitor 
program sponsor violators. All of this work was completed by June 1, 
2003. By August 2003, all F, M and J foreign students and exchange 
visitors were enrolled in SEVIS by their respective school or sponsor.
    More robust school screening requirements have essentially 
``cleaned'' the list of schools that could issue the necessary I-20 
that initiates the process for an individual to enter the United States 
as a student. Gone are the days of the questionable dog grooming school 
that, despite no investigation, had the authority to sponsor 
individuals to enter the country. Of the 70,000 previously certified 
schools, approximately 8,000 schools now remain in SEVIS due to the 
enhanced and centralized SEVP certification process, which requires a 
site visit, and consistent reporting in SEVIS of changes in the 
student's status and performance at the institution. As a result SEVIS 
data is more reliable and, therefore, more useful as an enforcement 
tool.
    The SEVIS system also creates an electronic, real-time, centralized 
repository of these records. Today, SEVIS is the only electronic system 
used to track the status of F, M and J non-immigrants from the moment 
they are accepted at a U.S. institution, through the completion of 
their program. As of February 25, 2005, 609,517 students, 142,901 
exchange visitors, and 120,870 of their dependents are registered in 
SEVIS. These individuals report to--and are monitored by--7,960 
certified schools and 1,453 exchange visitor program sponsors. Over a 
period of two years, we have effectively eliminated a vulnerable and 
archaic paper-based system of records and transitioned to an 
electronic, interactive and up-to-date system. We believe we have 
accomplished this, in partnership with DOS, the academic and exchange 
community, in a manner that has addressed concerns from this community 
while at the same time establishing a tool that enhances our 
immigration and law enforcement capabilities as well as our national 
security.

HOW SEVIS WORKS
    SEVIS is a fully integrated system that incorporates information 
directly from schools, exchange program sponsors, and other Federal 
electronic systems. The process begins with prospective foreign 
students applying for admission to one or more schools in the United 
States. If accepted, the school/s issues the students a Form I-20 from 
SEVIS after inputting specific data on the individuals into the system. 
At this point, the students must decide which school they wish to 
attend. The students then pay the $100 SEVIS fee using the information 
from the I-20 issued by the school they will attend. The students then 
take the I-20 issued from that institution to the U.S. consulate or 
embassy to apply for a student visa. During the visa application and 
screening process, the Department of State (DOS) consular officers uses 
SEVIS to confirm that the individual before them has, in fact, been 
accepted by the school referenced on the application, and that the 
institution is certified by DHS. The consular officer verifies the 
information on the I-20 with the information in SEVIS, and if the 
application is approved, issues the student a non-immigrant visa. Once 
approved, this visa data is electronically uploaded into SEVIS from the 
DOS Non-Immigrant Visa (NIV) system.
    The student must then present the Form I-20 along with the visa at 
the post of entry prior to admission by a U.S. Customs and Border 
Protection (CBP) officer. As the student is inspected and admitted, 
pursuant to either the United States Visitor and Immigrant Status 
Indicator Technology (US-VISIT) Program and/or National Security Entry 
Exit Registration System (NSEERS) registration process, the information 
is uploaded into SEVIS from the CBP Arrival and Departure Information 
System (ADIS). This information is made available to schools in order 
to notify them that their foreign student has arrived in the U.S. and 
should be reporting to the school within 30 days. Once the student has 
physically reported to the school and enrolled, the school updates the 
student's SEVIS record, thus confirming arrival. If a student enters 
the country and fails to enroll at the school, the student's record 
will be terminated in SEVIS, which, in turn, will trigger further 
investigation from the ICE Compliance Enforcement Unit.
    Schools will continue to update the record throughout the student's 
stay in the United States with information such as change of address, 
change of course study, employment, or transfer to another institution. 
Once the foreign students graduate or complete their program, they 
should depart the United States, or change to another immigration 
status in accordance with immigration law.
    The process described above is very similar for an exchange visitor 
who is participating in an exchange activity authorized by DOS. As 
shown, SEVIS is able to provide up-to-date information on the status of 
foreign students and exchange visitors throughout their stay in the 
United States.

REVIEW OF ACCOMPLISHMENTS
    In order to better understand the progress of SEVIS and its 
importance as a law enforcement and immigration tool, I would like to 
share with the Committee some of the program's accomplishments.
    <bullet>  Implementation of the SEVIS Fee--Congress mandated that 
SEVP be an entirely fee-funded program through the collection of school 
certification fees and the SEVIS fee paid by students and exchange 
visitors. On September 1, 2004, SEVP implemented the SEVIS fee for 
students and exchange visitors successfully and on time. This 
accomplishment assisted the program in meeting its goal of 
transitioning from appropriated funding to fee-based funding in Fiscal 
Year (FY) 2005. In addition, SEVP established several fee payment 
mechanisms to enable the international education and exchange 
community. These payment options include credit card or debit card on-
line; check or money order mailed to a lockbox in the United States; 
payment by a third party on the student or exchange visitor's behalf; 
and bulk-filing for certain exchange visitor program sponsors. SEVP has 
continued to make enhancements to the fee payment system, including a 
new fee payment method established on November 1, 2004, which allows 
payment in local currency through the Western Union Quick Pay Service, 
available in over 130 countries. Our goal was to ensure that all 
foreign students and exchange visitors could successfully pay the SEVIS 
fee, and we reached that goal. To date, we have collected over 170,000 
fee payments and we are not aware of any applicant not being able to 
pay the fee. In order to prevent -or immediately resolve- fee payment 
problems, SEVP established a Case Resolution Unit working directly with 
the individuals experiencing fee payment problems. This unit became 
operational on August 10, 2004, and has been engaged since September 1, 
2004, in resolving over 3,000 fee application and payment issues. This 
unit's efforts prevent the outright rejection of many fee applications, 
thereby expediting the fee payment process, as well as better serving 
our customers in their efforts to pay the fee. Moreover, SEVP has 
established a real-time check between the student and exchange 
visitor's fee information and SEVIS data to ensure 100 percent 
accuracy. Finally, on April 18, 2005, SEVP is scheduled to begin 
implementation of a customer service website that will enable students 
and exchange visitors to check online the status of their fee payment.
    <bullet>  Centralized and Enhanced School Certification--As 
mandated by Congress, U.S. schools interested in accepting foreign 
students must first be certified by SEVP. Today, SEVIS has nearly 8,000 
schools certified to accept foreign students. The school certification 
process is an excellent example of a re-engineered process. SEVP has 
centralized the adjudication of school petitions from district offices 
located throughout the United States to ICE Headquarters. This move 
enables us to ensure we are applying the same criteria and standards to 
all petitions and see trends to better identify potential fraud in 
schools. Each school certification requires both the review and 
adjudication of the I-17 petition, and an on-site visit. This on-site 
visit confirms the bona fides of the school, and, more importantly, 
ensures that the school understands its responsibilities to keep 
adequate records and to update SEVIS with any changes to the students' 
status. In addition, SEVIS provides alerts and reports to the schools 
and exchange visitor program sponsors to help them monitor and keep 
track of their students and exchange visitors.
    <bullet>  Implementation of SEVIS Response Team--In preparation for 
the August 1, 2003, statutory deadline to have all non-immigrant 
students and exchange visitors registered in SEVIS, SEVP organized and 
implemented a highly successful SEVIS Response Team (SRT) to assist 
with issues associated with students and exchange visitors not yet 
registered in SEVIS but who appeared at the ports-of-entry. Operating 
24-7, the SRT worked with inspectors at ports of entry, adjudicators, 
investigators, schools and program sponsors to expeditiously resolve 
issues related to the admission into the United States of students and 
exchange visitors. The creation of the SRT demonstrates the 
Department's and ICE's commitment to making SEVIS a process that not 
only enhances national security but also facilitates the entry of 
legitimate students and exchange visitors into the United States. 
During the first six weeks in operation, the SRT received over 8,000 
calls and assisted over 5,400 students and exchange visitors entering 
the United States. Three subsequent SRTs were established during high 
volume entry periods to ensure the success of the program and solidify 
a cooperative relationship with our government and non-government 
stakeholders. Today, we are proud to say that even during high volume 
entry periods, the SRT is no longer necessary since CBP officers at 
ports of entry have access to SEVIS violator information at primary 
inspection and to all SEVIS data at secondary inspection. In addition, 
CBP inspectors have increased their knowledge of SEVIS and are now 
proficient in accessing SEVIS information. The success and recent 
decline in the need for SRT assistance is attributable to our 
partnership with the academic and exchange visitor community. As a 
result, students and exchange visitors are more aware of the 
requirements to participate in SEVIS and are now arriving at the ports 
of entry with the required documentation ready, resulting in fewer 
delays.
    <bullet>  Information Technology (IT) Enhancements--Since the 
deployment of SEVIS, SEVP has made multiple improvements to its core 
technology. The vast majority of these improvements were the result of 
feedback and requests from the non-government users of the system (i.e. 
the schools and sponsors hosting foreign students and exchange 
visitors). By the end of fiscal year 2005, SEVIS will have undergone a 
total of 11 major releases to improve performance and functionality, 
which, in turn, represents several hundred individual improvements. For 
example, in the summer of 2003, data ``bleeding'' between records in 
SEVIS surfaced as a critical issue. With an expedited IT update 
release, the hiring of an additional IT contractor, and the applying of 
additional resources, data ``bleeding'' was eliminated and has no 
longer been an issue. Just as important as data collection is the need 
to make SEVIS capable of interfacing with the IT systems of key Federal 
partners. This has been accomplished. Interfaces have been built 
between SEVIS and the Computer-Linked Application Information 
Management System (CLAIMS), the USCIS database that maintains 
information on immigration benefit petitions and applications; SEVIS 
and ADIS, the CBP system that collects port of entry information on 
non-immigrants; SEVIS and NIV, the DOS system that collects information 
on visas issued to non-immigrants; SEVIS and the Consolidated Consular 
Database (CCD), the DOS database overseas that facilitates the issuance 
of visas; SEVIS and US VISIT, the system that collects biometrics on 
non-immigrants arriving and departing from the United States. These 
interfaces are key to ensuring that SEVIS data represents the total 
picture of the status of foreign students and exchange visitors in the 
U.S.
    <bullet>  SEVIS Recognition--In May 2004, the E-Gov Institute 
Government Solutions Center selected SEVIS as a best practice system 
that delivers improved service with innovative applications and 
streamlined processes. SEVIS was selected among nominations received 
from all levels of government, including Federal, State, local and 
international organizations. Also, representatives from the ICE Chief 
Information Office and SEVP were recognized at the 2004 Annual 
Government Solutions Forum Exhibition awards banquet in Washington, 
D.C. While SEVIS is still a relatively new system responsible for 
collecting significant amounts of student and exchange visitor data, a 
June 2004 Government Accountability Office (GAO) report on SEVIS noted 
that many of the initial problems with the system, including system 
performance have been corrected and that the system is improving. The 
system is currently performing the function that it was designed to do 
in an effective and efficient manner.
    <bullet>  Information Sharing--ICE recognized that the national 
security impact of the SEVIS data would be minimized if it were not 
capable of being shared with key Federal partners. ICE has addressed 
this concern. SEVIS data is being shared with other Federal partners 
and has enhanced their capabilities of detecting immigration benefit 
fraud and criminal and terrorist activities. In addition, SEVIS data is 
currently being used across DHS, as well as by DOS and the Federal 
Bureau of Investigations (FBI) to support homeland security and 
national security functions. USCIS uses SEVIS data to support 
immigration benefit eligibility determinations. CBP uses SEVIS data to 
assist in the determination of non-immigrant eligibility for admission 
into the United States. Agencies outside DHS, such as the FBI, use 
SEVIS data to support ongoing investigations. DOS uses SEVIS to 
administer and monitor the exchange visitor program and uses data in 
SEVIS verify visa eligibility and to facilitate the visa issuance 
process. Additionally, USCIS is using SEVIS to assist the Social 
Security Administration (SSA) in determining the eligibility of foreign 
students and exchange visitors to obtain social security numbers. This 
expedited process of determining eligibility is critical for students 
interested in pursuing optional practical training -or work related to 
their academic studies. SEVIS is used to conduct searches to respond to 
SSA inquiries regarding students and exchange visitors status. This 
process is a joint venture between DOS, DHS, and SSA. Using SEVIS as a 
mechanism to verify status replaces a manual search process that often 
took weeks to accomplish. The result is that eligible students and 
exchange visitors receive social security numbers in a timely manner. 
Since January 2004, SEVIS data has been used for verification in over 
47,000 cases. At the same time, SEVIS provides the SSA a more efficient 
and accurate tool to ensure that only eligible students are issued 
Social Security cards.
    <bullet>  Outreach to the Academic Community--SEVP has implemented 
a comprehensive outreach strategy to reach the schools and sponsors 
system users, as well as the students and exchange visitors that they 
host. We have implemented an enhanced website for the centralized 
dissemination of information on the program and its requirements, and 
have posted frequently asked questions to provide standardized and 
consistent information on various subjects of interest-such as fee 
payment and travel into the U.S. The website address itself was 
simplified and it currently has the second highest number of hits of 
any website in ICE. We also hold bi-weekly conference calls with 
various stakeholders on policy and information technology issues. SEVP 
sends representatives to stakeholder conferences across the country in 
order to get our message out and to get feedback from the community on 
various elements of the program. Additionally, SEVP publishes a 
quarterly newsletter that is also posted on the website. All of these 
efforts promote a cooperative partnership that is critical to the 
success of the program.
    <bullet>  Privacy Safeguards--SEVP has undertaken safeguards to 
ensure that robust privacy protection is accorded to all individuals 
whose information is maintained in SEVIS. As this data continues to 
serve the law enforcement needs of ICE and of our Federal partners, it 
is important that all users understand and respect the privacy of the 
information in the system. For this reason, SEVP, in coordination with 
the DHS Privacy Office, has prepared a Privacy Impact Assessment and a 
System of Records Notice.
    <bullet>  Compliance Enforcement Unit (CEU) Liaison--Addressing the 
concerns of schools, program sponsors, foreign students and exchange 
visitors, SEVP established a Compliance Enforcement Unit Liaison 
position to examine and verify investigative leads on potential status 
violators. Specifically, the CEU Liaison researches and analyzes leads 
on potential violators, working with the schools and program sponsors 
to verify the accuracy of SEVIS information. The objective is to ensure 
that ICE investigative resources are used as efficiently as possible by 
verifying that all leads sent to the field are indeed valid and warrant 
the expenditure of those resources. This review process has helped 
prevent the unnecessary detention and removal of legitimate students 
and exchange visitors. Alternately, this process has also expedited the 
forwarding of valid leads for further investigation.

COMPLIANCE ENFORCEMENT UNIT
    The Enhanced Border Security and Visa Entry Reform Act of 2002 
requires schools to report foreign students who fail to enroll within 
30 days of the schools' registration deadline. Schools appoint foreign 
student advisors who are required to maintain foreign student 
information and assist the students and the school in adhering to the 
laws and regulations of the Immigration and Nationality Act. These 
advisors, known as designated school officials, are responsible for 
reporting students who fail to maintain their status for specific 
reasons, such as failing to show up for their program, failing to carry 
the required course load, and other adverse reasons. Additionally, 
SEVIS performs automatic data runs to identify students who have fallen 
out of status by failing to enroll or for other reasons. These actions 
will cause a student's record in SEVIS to become ``terminated.''
    After a student's SEVIS record has been terminated, CEU, which is 
part of the ICE Office of Investigations, extracts data from SEVIS on 
the terminated records. Lookouts are entered on these terminated 
records to alert officers and inspectors within DOS, CBP, and USCIS of 
a potential violation of the student's non-immigrant status and to 
scrutinize subsequent attempts to obtain a visa or another immigration 
benefit, or to enter the United States. Moreover, the ICE Law 
Enforcement Service Center (LESC) in Burlington, Vermont, has access to 
SEVIS, as well as the CEU-generated violators lookouts in IBIS, and can 
advise Federal, State, and local law enforcement officers who make 
inquiries to the LESC of the immigration status of a foreign student or 
exchange visitor. If a student is later determined not to be in 
violation of his/her status, or overcomes a past violation by virtue of 
a new visa, the lookout is removed. The process described above also 
applies to exchange visitors and their program sponsors.
    CEU conducts a thorough review of each individual terminated record 
to identify those who have actually violated their status. This review 
includes record checks against several immigration and terrorist 
databases. After this review, actionable leads are identified, and 
recorded, and tracked electronically to ensure accountability. These 
validated leads are then prioritized according to their national 
security risk, or impact on public safety, such as the case with 
criminal aliens. ICE field offices for investigation are assigned 
actionable leads for further investigation and enforcement action. ICE 
field offices have arrested 641 status violators as a result of this 
effort. ICE is committed to enforcing our immigration laws against 
violators identified through SEVIS. This is founded in our belief that 
effective compliance enforcement of student violators is a critical 
component of SEVIS , and of our legal immigration system.
    CEU identifies approximately 1,000 potential student and exchange 
visitor status violators a week through SEVIS. However, this number 
more than doubles when student enrollment peaks after the start of the 
school term. To date, over 81,000 potential violator leads have been 
resolved through CEU analysis. CEU has placed more than 130,000 
lookouts on students and exchange visitors who have been terminated in 
SEVIS, and who have potentially violated their nonimmigrant status. The 
lookouts are subsequently reviewed to determine whether they are, in 
fact, malafide students or exchange visitors. CEU has assigned over 
3,700 SEVIS violator leads to ICE Special Agent in Charge (SAC) field 
offices for investigation, resulting in 641 arrests.

COMPLIANCE SEVIS ENFORCEMENT EXAMPLES
    CEU continuously monitors SEVIS data in order to increase the 
effectiveness of SEVIS as an enforcement tool. Using the work of CEU, 
ICE will continue to adapt SEVIS enforcement priorities to recent 
trends, current intelligence and known threats as they relate to 
national security and public safety. The following are some examples of 
successful apprehensions of status violators resulting from CEU 
initiated SEVIS leads. These violators were identified as national 
security threats only after they had entered the country and had been 
properly screened:
    <bullet>  A Pakistani national was arrested for failure to enroll. 
This student violator was the subject of a terrorist database record 
entered after his arrival to the U.S., and was investigated by the 
Joint Terrorism Task Force. This subject is currently in removal 
proceedings. If ordered removed, he will be barred from re-entry for a 
period of 10 years.
    <bullet>  A Saudi Arabian national was investigated for failing to 
maintain his student status. After his arrival, this violator was 
identified as a potential extremist having possible links to a 
terrorist organization. He attempted to smuggle a 500,000-volt stun gun 
onboard a commercial aircraft. This subject was deported from the 
United States and is barred from re-entry for 10 years.
    <bullet>  A Jordanian national was arrested for failing to maintain 
his student status. Subsequent to his entry into the United States, 
this student violator was entered in the National Crime Information 
Center database (NCIC) as a potential terrorist, having possible links 
to a terrorist organization, and was the subject of an FBI 
investigation. This subject is currently in removal proceedngs.
    These apprehensions are significant in that ICE was able to use 
SEVIS to rapidly identify nonimmigrant violations on each potential 
terrorist subject, and place them into removal proceedings. These 
examples demonstrate how SEVIS capabilities augment the overall 
effectiveness of terrorist databases and counter terrorism 
investigations.

LOOKING FORWARD
    As you have heard, many initial obstacles encountered during the 
implementation phase of SEVIS and SEVP have been overcome. Major 
accomplishments have been achieved as a result of the cooperation and 
coordination with the academic community and other Federal partners. 
But there is still room for growth and greater efficiency in SEVP.
    One such area is the overall integrity of the information in SEVIS. 
The system is a cornerstone in the fight against terrorism, used by law 
enforcement partners to identify potential violators in the United 
States who seek to do us harm. Consequently, the information in the 
system must be reliable. We are working toward an overall data 
integrity strategy that will address data correction issues, including 
enhanced training for SEVIS users, more frequent and targeted 
discussion to receive feedback from the education community, and 
increased authority for school and program sponsors to correct data 
entry errors. In order to facilitate data integrity and system 
performance discussion with SEVIS users, SEVP is considering the 
establishment of a Federal Advisory Committee (FAC) specifically 
focused on performance. Such a FAC would bring together members of the 
SEVIS community to meet on a regular basis to discuss user requirements 
and system enhancements. Such a FAC would be composed of a diverse 
group of individuals to ensure that SEVIS community at large is 
represented. We look forward to working with the education community 
and our Federal partners in crafting a solution to these issues that 
will be beneficial to us all.
    Another area that we recognize presents a challenge to us and to 
the community is the coordination of student and exchange visitor 
policy across multiple agencies in the Federal government. This 
situation is not unique to student and exchange visitor issues, but is 
a complex one that affects the lives of individuals in a very personal 
way. We recognize this challenge and are eager to work with the 
community and our agency partners to develop a process that will allow 
for enhanced and expedited decision making between various 
organizations on issues that impact the academic and exchange visitor 
community.
    We welcome the thoughts of the academic and exchange community 
regarding ways the Federal government can provide better service to 
foreign students and exchange visitors and the schools and program 
sponsors that are hosting them.
    Another opportunity for further collaboration with the community 
and Federal partners in the very near future is the recertification of 
schools currently participating in SEVIS. The Enhanced Border Security 
Act of 2002 required that all schools accepting non-immigrant students 
be recertified every two years. An implementing rule on recertification 
is currently being prepared, and will be published in the Federal 
Register. Schools will be given ample time to prepare for 
recertification and will maintain their authority to accept non-
immigrant students while they are undergoing the recertification 
process. A dialogue with the community about the recertification 
process will ensure that the process is not burdensome to the schools 
and will allow us to ascertain whether the school is still fulfilling 
its SEVIS requirements, such as maintaining current records on the 
students throughout their participation in the academic program.
    We look forward to continuing to grow as a program and to more 
effectively work with the community on our common goal of keeping the 
doors open to foreign students and exchange visitors interested in 
participating in outstanding academic institutions and exchange visitor 
programs in the US, while effectively monitoring their compliance with 
our nation's laws for the security of us all.
    Thank you, Chairmen McKeon and Tiberi, and Members of the 
Committee, for the opportunity to testify before you. I look forward to 
answering any questions that you may have.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Mr. Edson.

 STATEMENT OF STEPHEN A. EDSON, MANAGING DIRECTOR OF THE VISA 
    SERVICES DIRECTORATE, BUREAU OF CONSULAR AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Edson. Mr. Chairman, Members of the Committee, thank 
you for the invitation to testify today on the role of the 
State Department in the processing of student visas.
    Consular officers who serve at our 211 visa adjudicating 
posts around the world form this nation's first line of defense 
against international terrorists and others who would do this 
country harm.
    Consular officers also serve as the public face of the 
United States government overseas and appreciate that America 
is a nation of immigrants and has always welcomed legitimate 
visitors. This is the foundation of the Department's policy of 
secure borders and open doors, an apt description of the 
balance we strive for between border security and openness.
    It's in our national interest to encourage people to study 
at our educational institutions, rightly famous the world over 
for offering the very best in education. International students 
attending U.S. colleges and universities account for $13 
billion in revenues each year. Beyond the economic benefits, we 
as a nation gain immeasurably from the foreign students who 
study at our colleges and universities.
    In the aftermath of the September 11 attacks, the State 
Department and other agencies made many far-reaching changes to 
strengthen border security. Some of the changes resulted in 
visa processing delays. The delays were exacerbated when we 
expanded the requirement for personal interviews to include 
almost all visa applicants in order to enhance security and to 
prepare to implement the congressional requirement that we 
collect biometric data from visa applicants.
    We and our interagency partners have undertaken a 
transformation of the visa process over the past 3 years. For 
example, we've instructed all consular officers at our overseas 
posts to give priority to students and exchange visitors. Visa 
applicants now have more information to plan their travel since 
we began requiring that all posts publicize current visa 
appointment wait times and processing times on our Internet 
site.
    We've added to the resources dedicated to processing visas. 
We've created more than 350 new consular positions since 
September 2001, and the President's budget request for 2006 
includes funding for an additional 121 consular officer 
positions.
    We invested $1 million in automating outdated systems for 
transmitting and receiving interagency security clearances. 
This cuts days off the processing time.
    We have also enhanced consular training so the consular 
officers are better prepared. This updated training now 
includes a formal presentation on the importance of 
international education and exchange.
    The result of these investments is a demonstrably better 
visa process. Now almost all the visa applications we receive, 
some 97 percent, are processed in one or 2 days. A small 
proportion of cases require interagency clearances due to the 
applicant's involvement in a sensitive scientific field. We 
refer to these applications as Visas MANTIS cases, and for a 
time they were subject to prolonged delays. To address the 
problem, we assigned a special team to handle the cases and 
reached agreement on improvements with other agencies involved 
in that process.
    The improvement in processing time has been striking. In 
November 2003, the average processing time for a MANTIS 
clearance was about 72 days. Today the average processing time 
is less than 2 weeks.
    With our interagency partners, we also extended the 
validity of those clearances so that most students are able to 
obtain a clearance one time for the duration of their academics 
program.
    The post-9/11 decline in applications contributed to a 
perception among the business, travel and scientific 
communities that visa processing impedes legitimate travel to 
the United States.
    This perception was exacerbated by the results of studies 
and negative anecdotes reported in the media. News accounts 
report that the United States is somehow less welcoming to 
foreign students, and often point to U.S. visa processing as a 
barrier to study in the U.S. Although there have been changes 
in the way visas are processed, the criteria have basically not 
changed. The overall visa refusal rate has remained virtually 
constant sine prior to September 11th. In fact, the percentage 
of student visa applicants who received their visas is 
increasing.
    We've been battling these and other misperceptions with an 
aggressive public outreach campaign. We've also consulted 
closely with the academic community over the past 3 years to 
take their concerns into account and solicit suggestions on how 
we can improve the visa process without compromising national 
security.
    Visa outreach efforts will continue. We recognize that we 
must work with the academic community to counter lingering 
misperceptions about the visa process and have encouraged 
academic organizations to acknowledge the progress we've made 
as a way of attracting students to the U.S.
    In the meantime, we will continue to support what we hope 
will be a resurgence of student visa applications by making 
sure that legitimate students receive visas in a timely manner.
    Thank you.
    [The prepared statement of Mr. Edson follows:]

    Statement of Stephen A. Edson, Managing Director, Visa Services 
  Directorate, Bureau of Consular Affairs, U.S. Department of State, 
                             Washington, DC

    Mr. Chairman, Members of the Committee:
    I appreciate your invitation to testify before you regarding the 
role that the Department of State plays in the processing of student 
visas. The Bureau of Consular Affairs is responsible for protecting the 
lives and interests of U.S. citizens overseas, and for making lawful 
and conscientious judgments about applications for passports for U.S. 
citizens, as well as visa applications for immigrants and visitors, 
including students and exchange visitors. Consular officers serve at 
our 211 posts that adjudicate visa applications all over the world. 
They quite literally form this nation's first line of defense against 
international terrorists, transnational criminals and others who would 
do this country harm.
    Consular officers also serve as the public face of the United 
States Government overseas, and appreciate that America is a nation of 
immigrants, and has always welcomed legitimate visitors from all over 
the globe. This is the foundation of the Department's policy of Secure 
Borders and Open Doors; an apt description of the balance we strive for 
between border security and openness.
Secure Borders and Open Doors
    It is in our own national interest to encourage people who want to 
visit our beautiful nation, conduct business, and study at our 
educational institutions, rightly famous the world over for offering 
the very best in education. We have particular regard for international 
students, recognizing that the U.S. is preeminent in the field of 
higher education worldwide, and gained that standing with the 
contributions of students and academics from all over the world.
    International students attending U.S. colleges and universities 
account for $13 billion in revenues each year. Beyond the economic 
benefits, we as a nation gain immeasurably from international students 
and scholars who study at our colleges and universities and conduct 
research at our leading medical and scientific facilities.
    State Department-sponsored international exchange programs, 
including Fulbright scholarships and International Visitor grants, 
offer a particularly compelling illustration of the impact of academic 
exchanges. Since the Fulbright Program's inception, over 255,000 people 
have participated in Fulbright exchanges. More than 110,000 people have 
participated in the Department of State's International Visitor 
Program, which brings current and future leaders of other nations to 
the U.S. for targeted education opportunities. Worldwide, more than 200 
alumni of U.S. exchange programs have become heads of state or 
government, including Anwar Sadat, Hamid Karzai, Tony Blair, Kim Dae-
Jung of South Korea, Oscar Arias Sanchez of Costa Rica, Ricardo Lagos 
of Chile, and Mikhail Saakashvili of Georgia, to name only a few.
    Secretary of State Condoleezza Rice has been a vocal advocate of 
the abiding U.S. tradition of welcoming students and other visitors to 
the United States. On March 9, she stated to the House Committee on 
Appropriations,
        ``We will continue to work closely with the Department of 
        Homeland Security to identify and prevent terrorists and other 
        adversaries from doing harm, even as we maintain the 
        fundamental openness that gives our democracy its dynamism and 
        makes our country a beacon for international tourists, 
        students, immigrants, and businesspeople. We will keep 
        America's doors open and our borders secure.''
    The Department of State adjudicates student visa applications in 
three general categories: F-1 visas for those engaged in academic 
studies at an accredited institution, J-1 visas for those participating 
in exchange programs, and M-1 visas for those engaged in non-academic 
or vocational study or training at a U.S. institution. In addition, 
derivative visa categories allow the immediate family members of 
students and exchange visitors to accompany qualified students during 
their period of study in the United States.

Processing Delays
    In the aftermath of the September 11 attacks, the State Department 
and other agencies made many far-reaching changes to strengthen border 
security that had an impact on visa processing. Some of the changes 
resulted in visa processing delays. For example, the State Department 
implemented a more robust visa screening system, or security advisory 
opinion (SAO) system, with our interagency partners that resulted in 
many more applicants requiring additional screening. The interagency 
SAO process, strained by the larger workload, led to particularly 
lengthy delays in 2002-2003. Processing delays were exacerbated when we 
expanded the requirement for personal interviews to include almost all 
visa applicants in order to enhance security, and in preparation for 
the implementation of a Congressional mandate that we collect biometric 
data from visa applicants.

Improvements
    The Bureau of Consular Affairs, in cooperation with its partners in 
the U.S. Government, has undertaken a transformation of visa procedures 
over the last three years. We have aggressively refined our processes 
and procedures to enhance the transparency, efficiency and 
predictability of the visa application process. Allow me to enumerate 
the Bureau's initiatives.
    For the last two years, we have instructed all of our overseas 
posts to give priority to students and exchange visitors. Our Embassies 
and Consulates have implemented this requirement in a number of ways 
and have been very successful in getting student applicants 
appointments in a timely way.
    Visa applicants now have more information to plan their travel 
since we began requiring that all visa processing posts publicize 
current visa appointment wait times and processing times on our 
Internet website at: www.travel.state.gov. In fact, we overhauled the 
entire website to make it more user-friendly and to provide additional 
resource material. Having more information about the process helps visa 
applicants be better prepared when they attend an interview.
    We have added to the resources dedicated to processing visas, in 
spite of the significant drop over the last two years in the number of 
visa applications we have received. We have created more than 350 new 
consular positions since September 2001 and the President's fiscal year 
2006 Budget request includes funding for an additional 121 consular 
officer positions.
    We have greatly increased the level of data sharing among the 
Department and other federal agencies to enhance border security. For 
example, we have made visa information available to DHS Customs and 
Border Protection Officers at ports of entry. This actually facilitates 
entry, since it resolves immediately any questions an inspector might 
have about fraud.
    We have made a concerted effort to undertake the most sweeping 
changes in a way that mitigates their impact. For example, we 
implemented changes to our interview requirements well in advance of 
the Congressional deadline to collect biometrics from all visa 
applicants by October 26, 2004. We made the changes in August 2003 so 
that our visa processing posts overseas could adopt procedures to 
manage the new workflow and so that the transition would be a smooth 
one.
    We invested $1 million in automating outdated systems for 
transmitting and receiving interagency security clearances. New 
software is in place at every post to automate what was previously a 
paper-based system. Requests and responses are now transmitted 
electronically to some agencies, cutting days off of the processing 
time and enhancing tracking and accountability.
    We have lengthened and enhanced consular training so that the 
consular officers we send into the field are better prepared to handle 
their adjudicatory responsibilities, and more familiar with the full 
context for their work. The basic consular training curriculum has been 
expanded from 26 to 31 days and incorporates advanced interviewing 
techniques that give consular officers more confidence in their 
decisions. The training also includes presentations on security threats 
and on the importance of international education and exchange.

Results
    The result of these investments is a demonstrably better visa 
application process across the board. Now, almost all of the visa 
applications we receive--some 97 percent--are processed in one or two 
days. For the two-and-a-half percent of visa applicants who, for 
national security reasons, are subject to additional interagency 
screening, we have streamlined the process so that even this small 
percentage of the overall number of applicants can expect an answer 
promptly.
    A portion of the cases that require interagency clearance are 
assigned special clearances due the applicant's involvement in a 
sensitive scientific field where the United States Government has 
concerns about the transfer of sensitive technology for hostile use. We 
refer to these applications as VISAS MANTIS cases and for a time they 
were subject to prolonged delays. To address the problem we assigned a 
special team of employees within the Bureau to handle MANTIS cases and 
reached agreement on improvements with other agencies involved in this 
process.
    The improvement in processing time is striking. In November 2003, 
the average processing time for a MANTIS case was about 72 days. Today, 
the average processing time for a MANTIS is less than 14 days.
    Through the interagency process, we also extended the validity of 
MANTIS clearances for students from one year, in most cases, to the 
entire length of the academic program. This means that, if a student 
receives a clearance, it remains valid as long as he or she remains in 
the program, up to a maximum of four years.
    Where it makes sense to do so, we pursue expanded visa reciprocity 
agreements with other nations. For example, China is the largest source 
country for international students in the United States. About a year 
ago we undertook active negotiations with China to secure a more 
liberal reciprocal visa regime to facilitate legitimate travel. Our 
efforts have resulted in an agreement between the United States and 
China, that took effect on January 15, to lengthen the maximum validity 
of business and tourist visas from six months (multiple entry) to 12 
months. We seek the same treatment for students but understand that it 
will require a change in China's domestic law. Nevertheless, we will 
continue to press the Chinese government for this liberalization on 
behalf of students.

SEVIS
    I understand that you are particularly interested in information 
about the Student and Exchange Visitor Information System (SEVIS). The 
Department of Homeland Security's Bureau of Immigration and Customs 
Enforcement administers SEVIS, and I defer to my colleagues in DHS to 
discuss it. I would however, like to discuss some of the real benefits 
to the Department of State and foreign students that SEVIS provides by 
verifying that a student is enrolled at an approved institution. The 
system provides a level of security and confidence in the documentation 
of enrollment from an educational institution, called the I-20, that 
was previously unavailable. Consular officers reviewing student visa 
applications now have confirmation of the authenticity of an I-20 and 
no longer have to question it. Although it is difficult to collect 
empirical data on this subject, we believe that the elimination of 
improperly completed or possibly fraudulent I-20 documents actually 
speeds the processing of a student visa application.

Addressing Misperceptions
    Visa applications worldwide declined immediately after September 
11, 2001, and eventually dropped by approximately 30 percent. While the 
number of applications decreased, the overall visa refusal rate 
remained almost constant. However, the decline in applications, coupled 
with processing delays and more visible security measures, such as the 
expanded use of personal interviews, contributed to a perception among 
the business, travel and academic communities that visa processing 
impedes, rather than facilitates legitimate travel to the United 
States.
    This perception was exacerbated by studies on travel to the United 
States and negative anecdotes reported in the media. For example, 
several surveys on international students showed decreasing numbers of 
applications and enrollment in U.S. universities. News accounts report 
that the United States is somehow less welcoming to foreign students 
and often point to U.S. visa processing as a barrier to study in the 
U.S. As recently as March 9, the Council of Graduate Schools issued a 
press release regarding a decline in international graduate school 
applications from 2004 to 2005.
    Although there have been changes to the way in which visas are 
processed, the overall visa refusal rate has remained virtually 
constant since prior to September 11, 2001. In fact, our own statistics 
comparing visa applications in October 2003 through January 2004 with 
October 2004 through January 2005 show that the percentage of student 
visa applicants received visas is increasing. For example, we issued 
64,912 student (F-1) visas from October 1, 2004 to February 28, 2005, 
and 63,900 during the same period the previous year. During that time, 
the refusal rate for this category of applicants dropped from 27 
percent to 25 percent. Issuances to exchange visitors (J-1) are also on 
the rise, from 62,909 issued from October 1, 2003 to February 28, 2004, 
to 69,802 visas issued from October 1, 2004 to February 28, 2005.
    Student visa applicants continue to be subject to Section 214(b) of 
the Immigration and Nationality Act (INA), which requires that the 
applicant possess a residence in a foreign country that he has no 
intention of abandoning. State Department regulations require that a 
consular officer be satisfied that, at the time of a visa application, 
the student has a residence abroad, has no immediate intention of 
abandoning that residence, and intends to depart the United States upon 
the termination of his student status. We recognize that the context of 
the residence abroad requirement for student applicants differs 
significantly from that of applicants for other kinds of temporary 
visas, since students may not have the same property, employment, and 
family obligations of other temporary visa applicants. Accordingly, we 
have updated our regulatory guidance clarifying that it is natural for 
students not to possess the same ties to a residence abroad that might 
be present in other cases. Consular officers are instructed that they 
must be satisfied at the time of the application that a student 
possesses the present intent to depart the U.S. at the conclusion of 
his or her studies. That this intention is subject to change or even 
likely to change is not a sufficient reason to refuse a visa.
    We have been battling these and other misperceptions with an 
aggressive public outreach campaign. We have also consulted closely 
with the academic community over the past three years to take their 
concerns into account and solicit suggestions on how we can improve the 
visa process without compromising national security.
    Assistant Secretary of State for Consular Affairs Maura Harty has 
spoken to a number of academic audiences over the past two years, and 
takes every opportunity to reach out to international student audiences 
during her official travel overseas. Most recently, she addressed a 
group of two hundred students at Beijing University and encouraged them 
to study in the United States. Deputy Assistant Secretary of State for 
Visa Services Janice Jacobs has spoken to academic associations and 
student groups dozens of times on this important issue. In fact, on 
February 23, she addressed over 350 students at the University of 
Maryland on one stop of our extensive domestic outreach program. 
Ambassadors and other officials lead our outreach efforts overseas, 
speaking to student groups and placing op-ed articles in local 
newspapers to encourage students to apply to U.S. academic 
institutions.
    Our efforts will continue. We recognize that we must work with the 
academic community to counter lingering misperceptions about the visa 
process, and have encouraged academic organizations to acknowledge the 
progress that we have made as a way of attracting students to the 
United States. In the meantime, we will continue to support what we 
hope will be a resurgence of student visa applicants by making sure 
that legitimate students receive visas in a timely manner.
    I have brought with me a summary of the improvements we have made 
to the visa process that benefit legitimate international students, as 
well as our most recent statistics showing the improvement in the 
processing time for cases that involve technology transfer concerns 
which I will leave with you and your staff. Now I am happy to answer 
your questions.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Mr. Hite.

STATEMENT OF RANDOLPH C. HITE, DIRECTOR, INFORMATION TECHNOLOGY 
ARCHITECTURE AND SYSTEMS ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE, WASHINGTON, DC, ACCOMPANIED BY JESS T. FORD, DIRECTOR, 
                INTERNATIONAL AFFAIRS AND TRADE

    Mr. Hite. Good morning to all of you, and thank you for the 
opportunity to participate in today's hearing on the progress 
in tracking international students in higher education.
    Before summarizing my written statement, let me first 
commend the Subcommittees for their continued attention to this 
important area, as evidenced by the hearings you held the month 
following the 9/11 attacks and then a year later.
    Given that several of the 9/11 hijackers attended flight 
training schools in the United States, it's abundantly clear 
that having a system that tracks foreign students and exchange 
visitors pre-entry, entry, and stay in the United States is 
critical.
    At the same time, since providing higher education to 
foreign students is a major U.S. service industry, doing so in 
a way that facilitates students' application and enrollment is 
also important.
    DHS has recognized this in stating its two main objectives 
for SEVIS: namely, to support oversight and enforcement of 
relevant laws and regulations and to streamline and modernize 
the entry of students and exchange visitors and their 
dependents.
    One key to achieving both objectives is for DHS to engage 
with SEVIS stakeholders--for example, the education community 
and the State Department--to clearly define outcome-oriented 
goals and objectives along with supporting system and people 
measures and to systematically measure and disclose the extent 
to which each is being met.
    In this regard, we reported in June 2004 that SEVIS 
performance had improved based on available system measures and 
other indicators of performance, including reports showing that 
certain key system performance requirements were being met, new 
requests for system corrections, which were showing a downward 
trend, and a general consensus among officials representing 10 
educational organizations that performance had improved.
    However, we also reported at that time that several key 
system performance requirements were not being measured, and 
that educational organizations continued to experience certain 
problems, particularly with regard to timely and accurate help 
desk support. For example, we found that SEVIS is not a very 
forgiving system when it comes to correcting data base errors 
because of the time and effort required to effect those 
changes. Accordingly, we made recommendations at that time 
aimed at improving system performance management and resolving 
education community concerns.
    Since June 2004, DHS reports that it has taken a number of 
steps to begin addressing our recommendations. In particular, 
we were told that help desk staffing has increased and the 
scripts used to guide help desk responses to queries have been 
revised. And at the same time, education associations generally 
agree that SEVIS performance has continued to improve, although 
they continue to cite residual help desk problems, particularly 
long delays in correcting data base errors which can create 
hardships for students and exchange visitors.
    Generally, however, these organizations do not believe that 
SEVIS should be singled out as the reason for the U.S. 
declining numbers of international students and exchange 
visitors.
    Now when I speak of these declines, I'm referring to that 
same report that the chair--or that the Ranking Member cited 
from the Council on Graduate Schools. And some of the numbers 
that were in that report between 2003 and 2004, graduate 
schools saw a 28 percent decline in applications, an 18 percent 
decline in admissions, and a 6 percent decline in enrollments. 
And then between 2004 and 2005, with respect to applications, 
they saw another 5 percent drop.
    Their report attributes the declines to increased global 
competition and changed visa policies, as did most education 
organizations that we spoke to.
    Now with respect to the second reason, the visa processing, 
I'd like to mention that we recently reported that a 
combination of Federal agency efforts has significantly 
improved the time it takes to process visa applications for 
certain science students and visiting scholars.
    So with that, I'd like to introduce my colleague; Mr. Jess 
Ford, as the chair recognized, is the director for GAO's 
International Affairs and Trade team, and he specializes in 
visa processing matters. Mr. Ford and I would be happy to 
answer any questions you have at this time.
    [The prepared statement of Mr. Hite follows:]

    Statement of Randolph C. Hite, Director, Information Technology 
Architecture and Systems Issues, U.S. Government Accountability Office, 
                             Washington, DC

    Messrs. Chairmen and Members of the Subcommittees:
    We appreciate the opportunity to participate in the Subcommittees' 
hearing on the federal government's progress in tracking international 
students in higher education. As you know, a central component of this 
tracking is the Student and Exchange Visitor Information System 
(SEVIS), an Internet-based system run by the Department of Homeland 
Security (DHS) to collect and record information on foreign students, 
exchange visitors, and their dependents--before they enter the United 
States, when they enter, and during their stay. The system, which is 
the focus of our testimony, began operating in July 2002, and DHS 
required its use for all new and continuing foreign students and 
exchange visitors beginning in August 2003.
    SEVIS automates the manual, paper-intensive processes that schools 
and exchange programs had been using to manage and report information 
about foreign students and exchange visitors. With SEVIS, schools and 
program sponsors can transmit information electronically to DHS and the 
Department of State. The system's two main objectives are
    <bullet>  to support the oversight and enforcement of laws and 
regulations concerning foreign students, exchange visitors, and 
schools, as well as sponsors of exchange visitor programs who are 
authorized by the government to issue eligibility documents, and
    <bullet>  to improve DHS's processing of foreign students and 
exchange visitors at ports of entry, through streamlined procedures and 
modernized data capture.
    Our testimony today is based on a report that we issued in June 
2004 \1\ on SEVIS performance, augmented by our recent work to 
determine DHS efforts to strengthen system performance since that 
report, reports that we issued in February 2004 and 2005 on student and 
visiting scholar visa processing, \2\ and related recent research by 
others.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Performance of Information System to 
Monitor Foreign Students and Exchange Visitors Has Improved, but Issues 
Remain, GAO-04-690 (Washington, D.C.: June 18, 2004).
    \2\ GAO, Border Security: Improvements Needed to Reduce Time Taken 
to Adjudicate Visas for Science Students and Scholars, GAO-04-371, 
(Washington, D.C.: Feb. 25, 2004) and GAO, Border Security: Streamlined 
Visas Mantis Program Has Lowered Burden on Foreign Science Students and 
Scholars, but Further Refinements Needed, GAO-05-198 (Washington, D.C.: 
Feb. 18, 2005).
---------------------------------------------------------------------------
    All work related to our testimony was conducted in accordance with 
generally accepted government auditing standards. Our SEVIS work was 
performed at DHS and State headquarters in Washington, D.C., and at 10 
educational organizations, \3\ from December 2003 through March 2004; 
we also conducted follow-up work at DHS Headquarters and 6 of the 10 
educational organizations in March 2005.\4\ Our work on student and 
visiting scholar visa processing was performed from May 2003 through 
January 2004, and July 2004 through February 2005 at several locations: 
DHS, State, and Federal Bureau of Investigation (FBI) headquarters in 
Washington, D.C.; and U.S. embassies and consulates in China, India, 
Russia, and Ukraine.
---------------------------------------------------------------------------
    \3\ The 10 organizations were the Accrediting Council for 
Continuing Education and Training, Alliance for International 
Educational and Cultural Exchange, American Association of Collegiate 
Registrars, American Association of Community Colleges, American 
Council of Education, Association of American Universities, Association 
of International Educators, Council for Standards for International 
Educational Travel, Council of International Educational Exchange, and 
the National Association of State Universities and Land-Grant Colleges.
    \4\ The six organizations were the Accrediting Council for 
Continuing Education and Training, American Association of Community 
Colleges, Association of American Universities, Association of 
International Educators, Council of International Educational Exchange, 
and the National Association of State Universities and Land-Grant 
Colleges.
---------------------------------------------------------------------------
Results in Brief
    After a number of problems during the first year that its use was 
required, SEVIS performance improved. As we reported last year, a 
number of indicators of how well SEVIS was performing were positive. In 
particular, DHS reports relating to certain system performance 
requirements \5\ showed that some key requirements were being met. 
Also, our analysis of new system change requests \6\ during the first 
year of required use, the majority of which related to fixing system 
problems, showed that the number of new requests was steadily 
declining. Further, the consensus among officials representing 10 
educational organizations that we spoke to was that system performance 
had improved. At that time, DHS attributed this performance improvement 
to a number of actions, such as installation of a series of new 
software releases and increased Help Desk staffing and training.
---------------------------------------------------------------------------
    \5\ Examples of performance requirements are (1) the system is to 
be available 99.5 percent of the time to all users 24 hours a day, 7 
days a week, excluding scheduled downtime and (2) the time to respond 
to user queries, as measured as the response time between the 
application server and database, is to be less than 10 seconds.
    \6\ Change requests are used to track all system changes, including 
corrections to erroneous system programming, as well as planned system 
enhancements.
---------------------------------------------------------------------------
    However, we also reported that several key system performance 
requirements were not being formally measured, and that by not 
measuring them, DHS was not adequately positioned to know sooner rather 
than later of system problems that could jeopardize accomplishment of 
SEVIS objectives. Further, we reported that, despite DHS actions, 
educational organizations were still experiencing problems, 
particularly with regard to Help Desk support, \7\ and we reported that 
although collection of a SEVIS fee had been required since 1996, it was 
still not being collected, and educational organizations were concerned 
about proposed fee collection options. Accordingly, we made 
recommendations aimed at improving system performance measurement and 
resolving educational organizations' performance issues and fee 
concerns.
---------------------------------------------------------------------------
    \7\ The SEVIS Help Desk was established, among other things, to 
assist system users by providing troubleshooting and resolution of 
technical problems.
---------------------------------------------------------------------------
    Over the last year, DHS reports that it has taken steps to address 
our recommendations, particularly with regard to strengthening Help 
Desk support. Moreover, educational organizations generally agree that 
SEVIS performance has continued to improve, and that their past fee 
collection concerns have been alleviated. However, despite DHS actions, 
these educational organizations still cite residual Help Desk problems, 
which they believe create hardships for students and exchange visitors. 
Most of these organizations, however, do not believe that SEVIS is the 
reason for the declining number of international students and exchange 
visitors coming to the United States.
    A recent report by the Council of Graduate Schools cites declines 
in U.S. international graduate school applications, admissions, and 
enrollments between 2003 and 2004, and further declines in these 
applications between 2004 and 2005.\8\ The report attributes the 
decline to increased global competition and changed visa policies. We 
recently reported on the State Department's efforts to address our 
prior recommendations for improving the Visas Mantis program, an 
interagency security check that often affects foreign science students 
and scholars applying for visas to come to the United States. In 
particular, we reported that a combination of federal agency steps had 
resulted in a significant decline in Visas Mantis processing times and 
in the number of Mantis cases pending more than 60 days. The Council of 
Graduate Schools' report also recognizes the recent Visas Mantis 
program changes as positive steps.
---------------------------------------------------------------------------
    \8\ Council of Graduate Schools, Findings from the 2005 CGS 
International Graduate Admissions Survey I. We did not independently 
verify the information in this report.
---------------------------------------------------------------------------
Background
    Within DHS's Immigration and Customs Enforcement (ICE) 
organization, the Student and Exchange Visitor Program (SEVP) is 
responsible for certifying schools to accept foreign students in 
academic and vocational programs and for managing SEVIS. Schools and 
exchange programs were required to start using SEVIS for new students 
and exchange visitors beginning February 15, 2003, and for all 
continuing students and exchange visitors beginning August 1, 2003. \9\
---------------------------------------------------------------------------
    \9\ According to program officials, SEVIS was available to certify 
schools on July 1, 2002, and to register students on July 15, 2002. 
According to State, SEVIS was available to exchange visitor programs in 
October 2002.
---------------------------------------------------------------------------
    The following tables show the number of active students, exchange 
visitors, and institutions registered in SEVIS as of February 28, 2005.

[GRAPHIC] [TIFF OMITTED] T0425.001

    SEVP is also responsible for providing program policies and plans; 
performing program analysis; and conducting communications, outreach, 
and training. Regarding SEVIS, SEVP is responsible for identifying and 
prioritizing system requirements, performing system release management, 
monitoring system performance, and correcting data errors.
    The Office of Information Resource Management, also part of ICE, 
manages the information technology infrastructure (that is, hardware 
and system software) on which the SEVIS application software is hosted. 
It also manages the SEVIS Help Desk and the systems life cycle process 
for the system, including system operations and maintenance.
    The software for the SEVIS application runs on a system 
infrastructure that supports multiple DHS Internet-based applications. 
The infrastructure includes common services, such as application 
servers, Web servers, database servers, and network connections. SEVIS 
shares five application servers and two Web servers with two other 
applications.
    To assist system users, the SEVIS Help Desk was established, which 
provides three levels of support, known as tiers:
    <bullet>  Tier 1 provides initial end-user troubleshooting and 
resolution of technical problems.
    <bullet>  Tier 2 provides escalation and resolution support for 
Tier 1, and makes necessary changes to the database (data fixes).
    <bullet>  Tier 3 addresses the resolution of policy and procedural 
issues, and also makes data fixes. \10\
---------------------------------------------------------------------------
    \10\ According to State, fixes to records of J visas are made at 
Tier 3 after it reviews and approves the changes.
---------------------------------------------------------------------------
    SEVP uses a contractor to operate Tiers 1 and 2. Both the 
contractor and the program office operate Tier 3. According to an SEVP 
official, contractor staff for Tiers 1 through 3 include the following: 
Tier 1 has 21 staff, Tier 2 has 6 staff, and Tier 3 has 13 staff.
    Data are entered into SEVIS through one of two methods:
    <bullet>  Real-time interface (i.e., an individual manually enters 
a single student/exchange visitor record) or
    <bullet>  Batch processing (i.e., several student/exchange visitor 
records are uploaded to SEVIS at one time using vendor-provided 
software or software created by the school/exchange visitor program).
            SEVIS Data and Users
    SEVIS collects a variety of data that are used by schools, exchange 
visitor programs, and DHS and State Department organizations to oversee 
foreign students, exchange visitors, and the schools and exchange 
visitor programs themselves. Data collected include information on 
students, exchange visitors, schools, and exchange visitor programs. 
For example,
    <bullet>  biographical information (e.g., student or exchange 
visitor's name, place and date of birth, and dependents' information),
    <bullet>  academic information (e.g., student or exchange visitor's 
status, date of study commencement, degree program, field of study, and 
institution disciplinary action),
    <bullet>  school information (e.g., campus address, type of 
education or degrees offered, and session dates);
    <bullet>  exchange visitor program information (e.g., status and 
type of program, responsible program officials, and program duration).
    SEVIS data are also used by a variety of users. Table 3 provides 
examples of users and how each uses the data.

[GRAPHIC] [TIFF OMITTED] T0425.002

Following Significant Early Challenges, SEVIS Performance Improved, but 
        Problems Remained
    In 2002 and 2003, when SEVIS first began operating and was first 
required to be used, significant problems were reported. For example, 
colleges, universities, and exchange programs could not gain access to 
the system, and when access was obtained, these users' sessions would 
``time out'' before they could complete their tasks. In June 2004, we 
reported that several performance indicators showed that SEVIS 
performance was improving. These indicators included system performance 
reports, requests for system changes to address problems, and feedback 
from educational organizations representing school and exchange 
programs. Each indicator is discussed below.

            Some Key System Requirements Were Being Met, but Not All 
                    Were Being Measured

    Whether defined system requirements are being met is one indicator 
of system performance. In June 2004, we reported that performance 
reports showed that some, but not all, key system requirements were 
being measured, and that these measured requirements were being met. 
Table 4 shows examples of key system performance requirements.


[GRAPHIC] [TIFF OMITTED] T0425.003

    However, we also reported that not all key performance requirements 
were being adequately measured. For example, reports used to measure 
system availability measured the time that the system infrastructure 
\11\ was successfully connected to the network. While these reports can 
be used to identify problems that could affect the system availability, 
they do not fully measure SEVIS availability. Instead, they measure the 
availability of the communications software on the application servers. 
This means that the SEVIS application could still be unavailable even 
though the communications software is available.
---------------------------------------------------------------------------
    \11\ This infrastructure supports multiple DHS Internet-based 
applications.
---------------------------------------------------------------------------
    Similarly, program officials stated that they used a central 
processing unit activity report to measure resource usage. However, 
this report focuses on the shared infrastructure environment, which 
supports SEVIS and two other applications, and does not specifically 
measure SEVIS-related central processing performance. Program officials 
did not provide any reports that measured performance against other 
resource usage requirements, such as random access memory and network 
usage.
    Program officials acknowledged that some key performance 
requirements were not formally measured and stated that they augmented 
these formal performance measurement reports with other, less formal 
measures, such as browsing the daily Help Desk logs to determine if 
there were serious performance problems requiring system changes or 
modifications, as well as using the system themselves on a continuous 
basis. According to these officials, a combination of formal 
performance reports and less formal performance monitoring efforts gave 
them a sufficient picture of how well SEVIS was performing. Further, 
program officials stated that they were exploring additional tools to 
monitor system performance. For example, they stated that they were in 
the process of implementing a new tool to capture the availability of 
the SEVIS application, and that they planned to begin using it by the 
end of April 2004.
    However, unless DHS formally monitored and documented all key 
system performance requirements, we concluded that the department could 
not adequately assure itself that potential system problems were 
identified and addressed early, before they had a chance to become 
larger problems that could affect the DHS mission objectives that SEVIS 
supports.

            Trends in Reported System Problems Indicated Improved 
                    Performance
    Another indicator of how well a system is performing is the number 
and significance of reported problems or requests for system 
enhancements. For SEVIS, a system change request (SCR) is created when 
a change is required to the system. Each of the change requests is 
assigned a priority of critical, high, medium, or low, as defined in 
table 5.

[GRAPHIC] [TIFF OMITTED] T0425.004

    Each change request is also categorized by the type, such as 
changes to correct system errors, enhance or modify the system, or 
improve system performance.
    In June 2004, we reported that the number of critical or high 
priority change requests that were created between January 2003 and 
February 2004 was decreasing. Similarly, we reported that the trends in 
the number of new change requests that were to correct system errors 
had decreased for that same period. Over this period, the number of 
corrective fixes requested each month between January 2003 and February 
2004 decreased, with the most dramatic decrease in the first 7 months. 
Figure 1 shows the decreasing trend in SEVIS new corrective change 
requests between January 2003 and February 2004.

[GRAPHIC] [TIFF OMITTED] T0425.005

            Educational Organizations Reported that System Performance 
                    Improved, but Identified Residual Problems Despite 
                    DHS Efforts to Address Them
    A third indicator of performance is user feedback. According to 
representatives of educational organizations, overall SEVIS performance 
at the time of our report had improved since the system began operating 
and its use was required, and the program's outreach and responsiveness 
were good. In addition, these representatives told us that they were no 
longer experiencing earlier reported problems, which involved user 
access to the system, the system's timing out before users could 
complete their tasks, and merging data from one school or exchange 
visitor program with data from another.
    However, seven new problem types were identified by at least 3 of 
the 10 organizations, and three of the seven problems were related to 
Help Desk performance. Table 6 shows the problems and the number of 
organizations that identified them.

[GRAPHIC] [TIFF OMITTED] T0425.006

    At the time of our report, DHS had taken a number of steps to 
identify and solve system problems, including problems identified by 
educational organizations. In particular, DHS steps to identify 
problems included
    <bullet>  holding biweekly internal performance meetings and weekly 
technical meetings,
    <bullet>  holding biweekly \12\ conference calls with 
representatives from educational organizations,
---------------------------------------------------------------------------
    \12\ The conference calls were being held weekly until January 
2004.
---------------------------------------------------------------------------
    <bullet>  establishing special e-mail accounts to report user 
problems, and
    <bullet>  having user groups test new releases.
    Further, DHS cited actions intended to address six of the seven 
types of problems identified by the educational organizations. These 
included releases of new versions of SEVIS and increases in Help Desk 
training and staffing. These officials also stated that they were 
evaluating potential solutions to the remaining problem.
    Table 7 shows the problem types, the number of organizations that 
identified them, and DHS's actions taken to address each.

[GRAPHIC] [TIFF OMITTED] T0425.007

    Despite DHS actions, educational organizations told us that some 
problems persisted. For example:
    <bullet>  Although the program office increased Help Desk staffing 
in March 2003, representatives from seven organizations stated that 
slow Tier 2 and 3 Help Desk responses were still a problem. In 
response, program officials stated that the majority of calls handled 
by Tiers 2 and 3 involve data fixes that are a direct result of end-
user error, and that fixing them is sometimes delayed until end-users 
submit documentation reflecting the nature of the data fix needed and 
the basis for the change.
    <bullet>  Although the program office began in June 2002 providing 
training to Help Desk staff each time a new SEVIS release was 
implemented, representatives from 5 of the 10 organizations stated that 
the quality of the Help Desk's response to technical and policy 
questions remained a problem. According to program officials, Help Desk 
response is complicated by variations in user platforms and end-user 
knowledge of computers. The officials added that the program office is 
working to educate SEVIS users on the distinction between platform 
problems and problems resulting from SEVIS. Further, they said that 
Help Desk responses may be complicated by the caller's failure to 
provide complete information regarding the problem. Program officials 
also stated that supervisors frequently review Help Desk tickets to 
ensure the accuracy of responses, and these reviews had not surfaced 
any continuing problems in the quality of the responses.

            SEVIS Fee Was Not Being Collected, and Educational 
                    Organizations Were Concerned about Fee Payment 
                    Options
    Various legislation \13\ requires that a fee be collected from each 
foreign student and exchange visitor to cover the costs of 
administering and maintaining SEVIS, as well as SEVP operations. In 
2004, we reported that 7 years had passed since collection of the fee 
was required, and thus millions of dollars in revenue had been and 
would continue to be lost until the fee was actually collected. We also 
reported that representatives of the educational organizations were 
concerned with the fee payment options being considered because the 
options were either not available to all students in developing 
countries, or they would result in significant delays to an already 
lengthy visa application and review process, and increase the risk that 
paper receipts would be lost or stolen.
---------------------------------------------------------------------------
    \13\ The Illegal Immigration Reform and Immigrant Responsibility 
Act of 1996 (IIRIRA) first required that schools and exchange programs 
collect the fee (Pub. L. 104-208, Div. C, Sept. 30, 1996). The Visa 
Waiver Permanent Program Act (2000) amended IIRIRA to require that the 
government collect the SEVIS fee (Pub. L. 106-396, Oct. 30, 2000).
---------------------------------------------------------------------------
    As we then reported, DHS's submission of its fee collection rule 
went to the Office of Management and Budget in February 2004, and it 
received final clearance in May 2004. The final rule, \14\ which was 
effective on September 1, 2004, (1) set the fee at $100 for 
nonimmigrant students and exchange visitors and no more than $35 for 
those J-1 visa-holders who are au pairs, camp counselors, or 
participants in a summer work/travel program, and (2) identified 
options for students and exchange visitors to pay the fee, including
---------------------------------------------------------------------------
    \14\ 69 Fed. Reg. 39814 (2004).
---------------------------------------------------------------------------
    <bullet>  by mail using a check or money order drawn on a U.S. bank 
and payable in U.S. dollars or
    <bullet>  electronically through the Internet using a credit card.
    According to DHS officials, another option for paying the SEVIS fee 
permits exchange visitor programs to make bulk payments to DHS on 
behalf of J visa-holders.

            DHS Continues to Take Steps to Address Our Recommendations
    To help strengthen SEVIS performance and address educational 
organizations' concerns, our report recommended that DHS:
    <bullet>  assess the extent to which defined SEVIS performance 
requirements are still relevant and are being formally managed;
    <bullet>  provide for the measurement of key performance 
requirements that are not being formally measured;
    <bullet>  assess educational organization Help Desk concerns and 
take appropriate action to address these concerns; and
    <bullet>  provide for the expeditious implementation of the results 
of the SEVIS fee rulemaking process.
    According to program officials, a number of steps have been taken 
relative to our recommendations, and other steps are under way. For 
example, program officials stated that they have established a working 
group to assess the relevance of the requirements in the SEVIS 
requirements document. The working group is expected to provide its 
recommendations for changing this document by the end of March 2005. 
The changed requirements will then form the basis for measuring system 
performance.
    Program officials also stated that they are in the process of 
selecting tools for monitoring system performance and have established 
a working group to define ways to measure SEVIS's satisfaction of its 
two main objectives, relating to oversight and enforcement of relevant 
laws and regulations and to improvement in port of entry processing of 
students and visitors. In this regard, they said that they have begun 
to monitor the number of false positives between SEVIS and the Arrival 
Departure Information System \15\ to target improvements for future 
system releases.
---------------------------------------------------------------------------
    \15\ The Arrival Departure Information System is a component of the 
U.S. Visitor and Immigrant Status Indicator Technology system that 
stores traveler arrival and departure data and provides query and 
reporting information.
---------------------------------------------------------------------------
    Program officials also reported that they are taking steps to 
address Help Desk concerns. For example, they said that they continue 
to hold bi-weekly meetings with educational organizations and directly 
monitor select Help Desk calls. They also said that Tier 1 Help Desk 
staffing recently increased by five staff, and the knowledge-based tool 
used by the Help Desk representatives to respond to caller inquiries 
had been updated, including ensuring that the tool's response scripts 
are consistent with SEVP policy. Additionally, these officials stated 
that they are reaching out to the Department of State to more quickly 
resolve certain system data errors (commonly referred to as data 
fixes), \16\ and said that a process has been established to ensure 
that high-priority change requests are examined to ensure correct 
priority designation and timely resolution. As of January 1, 2005, SEVP 
also established new performance level agreements with its Help Desk 
contractor, and it has been receiving weekly Help Desk reports to 
monitor performance against these agreements.
---------------------------------------------------------------------------
    \16\ According to State, fixes to records for J visas are made at 
Tier 3 after it reviews and approves the changes.
---------------------------------------------------------------------------
    DHS also began collecting the SEVIS fee in September 2004. 
Additionally, it introduced another payment option, effective November 
1, 2004, whereby students can pay the fee using Western Union. This 
method allows foreign students to pay in local currency, rather than 
U.S. dollars. Program officials also stated that DHS has developed a 
direct interface between the payment systems and SEVIS and the State 
Department's Consolidated Consular Database (CCD).\17\ According to 
these officials, this allows the consular officer to verify without 
delay that the visa applicant has, in fact, paid the SEVIS fee before 
completing the visa issuance process.
---------------------------------------------------------------------------
    \17\ CCD is used by consular officers to verify that the student or 
exchange visitor has been accepted by a particular school or exchange 
visitor program.
---------------------------------------------------------------------------
SEVIS Educational Organizations Report That Performance Continues to 
        Improve, but Some Problems Still Persist
    According to representatives of educational organizations, overall 
SEVIS performance continues to improve. We contacted 6 of the 10 
organizations that were part of our 2004 report on SEVIS performance, 
and representatives for all six organizations told us that SEVIS 
performance has generally continued to improve. In addition, five of 
the organizations stated that there were no new system performance 
problems. All of the organizations stated that they did not have any 
concerns with the SEVIS fee implementation.
    However, most representatives stated that some previously reported 
problems still exist. For example, representatives from five of the six 
organizations stated that slow Tier 2 and 3 Help Desk responses in 
correcting errors in student and exchange visitor records were still a 
problem. Three representatives stated that these corrections can take 
months, and in some cases even years, to fix. Two of the three stated 
that this has a major impact on the individuals involved. One 
organization reported that some exchange visitors' records have been 
erroneously terminated, and as a result, the visitors' families are 
unable to join them in the United States until a data fix occurs. 
According to the representative, this creates a very difficult 
situation for the individuals and makes it difficult to retain them in 
their academic programs. A representative for another organization 
reported that two participants' records erroneously indicate that they 
have violated their status as exchange visitors. Were these individuals 
to leave the country to visit their families before a data fix is made, 
they would be denied re-entry.
    In addition, representatives from three organizations stated that 
they were still experiencing problems with downloading and manipulating 
data from SEVIS. For example, one representative reported an inability 
to pull reports on the exact number of exchange visitors in its program 
and their status. This person expressed concern because DHS holds 
schools and programs accountable for tracking exchange visitors, but 
then does not give them the tools necessary to do so. Further, 
representatives from two organizations stated that they were still 
experiencing problems with incorrect Help Desk responses. For example, 
one representative reported that he was erroneously told by a Help Desk 
employee that there was no need to correct an individual's record of 
training, yet another Help Desk employee correctly stated that a fix 
was needed and gave detailed instructions on how to make the 
correction.
    Last, representatives from all six organizations stated that there 
have been declines in international students and exchange visitors 
coming to the United States. However, representatives from four of the 
six stated that SEVIS was not a factor, while representatives from the 
remaining two stated that SEVIS was just one of many factors. Other 
factors cited as contributing to this decline, which are discussed in 
the following section, were a lengthy visa application process and 
increased competition by other countries for students and exchange 
visitors.

            Recent Report Cites U.S. Decline in International Graduate 
                    Students, While Recognizing Recent Efforts to 
                    Improve Visa Processing for Science Students and 
                    Scholars
    A recent Council of Graduate Schools report \18\ indicates that 
foreign graduate student applications, admissions, and enrollments are 
declining. According to the report, international graduate applications 
to U.S. colleges and universities declined 28 percent from 2003 to 
2004, resulting in an 18 percent fall in admissions and a 6 percent 
drop in enrollments for the same period. In addition, while 2005 data 
on admissions and enrollments were not yet available, the report cited 
a 5 percent decline in applications between 2004 and 2005. According to 
the report, the declines in 2004 and in 2005 were most prominent for 
students from China and India. It also noted that between 2004 and 2005 
applications were unchanged from Korea and up 6 percent from the Middle 
East.
---------------------------------------------------------------------------
    \18\ Council of Graduate Schools, Findings from the 2005 CGS 
International Graduate Admissions Survey 1. We did not independently 
verify the data in this report.
---------------------------------------------------------------------------
    The report attributes this decline to two factors: increasing 
capacity abroad and visa restrictions at home. According to the report, 
countries in Europe and Asia are expanding their capacity at the 
graduate level through government policy changes and recruitment of 
international students. At the same time, the report says that the U.S. 
government has tightened the visa process since September 11, 2001, 
inadvertently discouraging international graduate students through new 
security procedures and visa delays.
    The Council of Graduate Schools also recognized recent federal 
actions to improve the student visa process. These actions are directly 
related to our work on the State Department's Visas Mantis program--an 
interagency security check aimed at identifying those visa applicants 
who may pose a threat to our national security by illegally 
transferring sensitive technology. The program often affects foreign 
science students and visiting scholars whose background or proposed 
activity in the United States could involve exposure to technologies 
that, if used against the United States, could potentially be harmful. 
In February 2004, we reported and testified \19\ that there were delays 
in the Visas Mantis program and interoperability problems between the 
State Department and the FBI that contributed to these delays and 
allowed Mantis cases to get lost. We determined that it took an average 
of 67 days for Mantis checks to be processed and for State to notify 
consular posts that the visa could be issued, \20\ and that many Visas 
Mantis cases had been pending 60 days or more. We also determined that 
consular staff at posts we visited were unsure whether they were 
contributing to waits because they lacked clear program guidance. 
Accordingly, we recommended that the State Department, in coordination 
with DHS and the FBI, develop and implement a plan to improve the Visas 
Mantis process.
---------------------------------------------------------------------------
    \19\ GAO, Border Security: Improvements Needed to Reduce Time Taken 
to Adjudicate Visas for Science Students and Scholars, GAO-04-443T 
(Washington, D.C.: Feb. 25, 2004).
    \20\ The average of 67 days was based on a random selection of 
Mantis cases submitted to the State Department between April and June 
2003.
---------------------------------------------------------------------------
    In February 2005, we reported that Visas Mantis processing times 
had declined significantly. For example, in November 2004, the average 
time was about 15 days, far lower than the average of 67 days that we 
reported previously. We also found that the number of Mantis cases 
pending more than 60 days has dropped significantly. Our report 
recognized a number of actions that contributed to these improvements 
and addressed other issues that science students and scholars face in 
traveling to the United States. These actions included adding staff to 
process Mantis cases; defining a procedure to expedite certain cases; 
providing additional guidance and feedback to consular posts; 
developing an electronic tracking system for Mantis cases; clarifying 
the roles and responsibilities of agencies involved in the Mantis 
process; reiterating State's policy of giving students and scholars 
priority scheduling for interview appointments; and extending the 
validity of Mantis clearances.
    Although we also identified opportunities for further refinements 
to the Visas Mantis program, we believe that the actions outlined above 
should allow foreign science students and scholars to obtain visas more 
quickly and to travel more freely. We did not determine the effect of 
these actions on the overall volume of international students traveling 
to the United States. However, representatives from the academic and 
international scientific community have indicated that they also 
believe the actions will have a positive impact. For example, the 
Association of American Universities identified the extension of Mantis 
clearances as ``a common-sense reform that removes an unnecessary 
burden that caused enormous inconvenience for thousands of 
international students and discouraged many more from coming here to 
study.''
    In closing, indications are that SEVIS performance has improved and 
continues to improve, as has visa processing for foreign science 
students and scholars. Moreover, recent SEVIS-related initiatives 
demonstrate program officials' commitment to future improvements. This 
commitment is important because educational organizations continue to 
report some persistent system problems, primarily with respect to Help 
Desk responsiveness in making certain ``data fixes.'' These problems 
can create hardships for foreign students and exchange visitors that 
can potentially have unintended consequences relative to these foreign 
students and exchange visitors applying to and enrolling in U.S. 
learning institutions. Therefore, it is important for DHS to 
effectively manage SEVIS performance against mission objectives and 
outcomes, as well as against system requirements. To this end, we have 
made several recommendations to DHS concerning SEVIS performance 
management.
    Messrs. Chairmen, this concludes our statement. We would be happy 
to answer any questions that you or members of the subcommittees may 
have at this time.
                                 ______
                                 
    Chairman McKeon. Thank you very much. I need some 
clarification. As I remember back at the time 9/11, that we had 
500,000 foreign students here in the country. At least that's 
the number that stuck in my mind. And I remember the discussion 
was that the 19 terrorists that brought those planes down, and 
I think four of them had entered the country on student visas. 
And I don't know--were those numbers accurate? Did we have 
500,000 foreign students, do you know? Do any of you know?
    [No response.]
    Chairman McKeon. OK. We'll have to find that out. Because 
what I'm wondering is what you say today, I think Mr. Cerda 
said that we have now 609,000 students?
    Mr. Cerda. Correct. The number is over 600,000. On the 
SEVIS system currently, we have over 600,000 F&M's, over 
140,000 J exchange visitors, and then you have dependents, over 
120,000 dependents of both categories.
    Chairman McKeon. But over 600,000 students?
    Mr. Cerda. Correct.
    Chairman McKeon. So if the 500,000 number that we had in 9/
11 is accurate, then we've actually had an increase in the 
number of students?
    Mr. Cerda. I'm not familiar with the 500,000.
    Chairman McKeon. We'll have to check on that.
    Mr. Edson. Mr. Chairman, I can add to that, according to 
the Institute of International Education, the 2000-2001 
timeframe, there were 547,000 students.
    Chairman McKeon. When was that again now?
    Mr. Edson. The 2000-2001 timeframe.
    Chairman McKeon. OK. So we had an increase in the number of 
students since 9/11 that are here on visas attending our 
schools?
    Mr. Cerda. I would say it would appear so, but again, I'm 
not familiar with the 500,000 number there. But we could look 
at it and get back to you on that point.
    Chairman McKeon. OK. That, to me, is a reassuring number, 
because I think we've heard that we've had a decline, and I 
know I have some numbers here that show a decline, but I think 
we need to--probably need to nail down those numbers. But I'm 
glad that we haven't had a precipitous dropoff.
    That's one of the concerns that we had from the previous 
hearings was that it was so cumbersome to get visas after 9/11 
to enter the country that we had a lot of dropoffs, so I guess 
during the course of this hearing today we can try to nail that 
down a little bit.
    It sounds like there's been a big improvement in SEVIS. And 
how did--you said that there were 70,000 schools approved, and 
now it's down to 8,000?
    Mr. Cerda. That's correct. Prior to SEVIS, the records that 
the Immigration and Naturalization Service had had capped a 
total of 70,000 schools throughout the United States that at 
some point were given the authority to issue I-20's.
    Chairman McKeon. So this is probably elementary, high 
school, post-secondary?
    Mr. Cerda. The whole population. You had the M schools, the 
trade schools, the high schools, the universities. And frankly, 
I think that is a pretty important figure there in the fact 
that we have added integrity by actually maintaining better 
records. These universities existed. Nobody was investigating 
them actively. Yet they were able to get I-20's and issue I-
20's.
    Now once we have started reviewing and set criteria out 
there clearly, the requirements for onsite investigations, we 
believe now that this is really the number that's accurate, and 
there's integrity in these universities, these programs that 
are currently registered in SEVIS.
    Chairman McKeon. So the 8,000 schools, you have pretty good 
confidence that they exist?
    Mr. Cerda. Correct. And we have confidence too that we've 
had a visit at these locations, too, since implementation of 
SEVIS.
    Chairman McKeon. Visits to each of the 8,000?
    Mr. Cerda. The onsite visits, correct.
    Chairman McKeon. Great. Is that a processing fee or a 
tracking fee? Does the student pay that fee? How much is that 
fee?
    Mr. Cerda. The student fee is $100. It was issued in a 
notice in the Federal Register. And it covers staffing for the 
SEVIS office, technology, maintenance, and also supports the 
Compliance Enforcement Unit efforts, compliance enforcement 
officers, investigators to follow up on these universities, on 
the schools.
    Chairman McKeon. And is that covering the cost?
    Mr. Cerda. Correct.
    Chairman McKeon. Thank you. My time is up. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Going back to, again, 
my experience at the University of Peshawar in Pakistan in 
1958-'59, even there, in those more gentle times and more 
gentle days, Pakistan had a very courteous, efficient, and 
friendly system of tracking students. There weren't as many 
students over there. I could recall when I would leave one 
political subdivision to go up to the Malakand agency to 
celebrate Eed, I would have to register where I was going, and 
it was done in a very courteous but very efficient way and a 
very friendly way. It sometimes took a while, because they 
insisted I take tea with them, too, as I went to apply for my 
application to travel.
    And I think that in our system here, we want to have 
efficiency because we want to have, you know, the safety of our 
country, but also a courtesy and a friendliness, too, because 
these are people we want to welcome to our shores, and I think 
that balance, all of you would want to maintain that balance. 
And I commend you for all your efforts you are making to 
maintain that, the safety of our country and the courtesy we 
extend to those who come to our country for study.
    Mr. Cerda, you mentioned the increase in number in SEVIS. 
Are these students who are actually in the country now or in 
the system to come into the country?
    Mr. Cerda. The SEVIS system tracks the individuals that are 
in the country right now. And then subsequently, it goes 
through the duration of their program. Ultimately, if they move 
on to a different visa category or they depart the country, 
that closes out the record in SEVIS. So we are looking at 
active individuals here in the United States at this time.
    Mr. Kildee. Would you be any way enumerating those who are 
in SEVIS but are not yet in the country? Are there two 
different categories, some who are still in process?
    Mr. Cerda. The process starts with the issuance of the I-
20, which is recorded in SEVIS. And then that leads to the 
issuance of the visa overseas. At the point of entry into the 
United States, that information then is--it's considered an 
active record. We get the notifications. At that point, the 
universities start working with us in terms of ensuring that 
the individual has appeared at the school, that they've 
maintained their records, and in situations of travel that 
there is permission for travel permitted in there.
    So we consider those the active cases in our system right 
now.
    Chairman McKeon. Mr. Edson, could you give us a few 
examples of where you changed the visa process as a result of 
your consultation with the academic community over the last 
several years?
    Mr. Edson. Certainly. One of the primary changes that we 
made was to add additional resources to those special clearance 
processes, even though they affect only a relatively small 
number of visa applicants, less than 2.5 percent of the 7 
million we process a year.
    That special screening for sensitive technologies does hit 
disproportionately science, obviously science students, but 
Chinese students in the higher sciences. So I think the primary 
change there was to strive for transparency in that process, to 
strive to add enough resources and streamline the interagency 
dialog that's necessary to conduct those clearances, so that we 
got back to something that is one faster, but also more 
predictable for the applicant. I mean, an applicant can usually 
put up with a 2-week clearance process if they know in advance 
that it's going to be a 2-week clearance process.
    That was something we worked closely with the academic 
community on. The changes to our website and our data bases to 
allow our posts overseas to continually update their own wait 
times for appointments, for obtaining appointments. I think 
that's been significant.
    We have also--it's long been a policy, but beginning 2 
years ago, we instructed our posts to make sure that they have 
separate appointment streams for students, so that a student 
can always get an appointment in time to show up for school. I 
mean, no student should miss school because they had to wait 
for a visa appointment overseas. That's the goal and that's the 
reality today. And that was largely as a result of the dialog 
with the academic community.
    Mr. Kildee. Very good. I think within the needs of the 
safety of our country, that as much that we can do to lessen 
that uncertainty is a very, very important and a welcome thing. 
So I would encourage you to keep pursuing that.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman McKeon. Thank you. Chairman Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. Mr. Edson, I want to 
just publicly thank you.
    My office and my personal experience in dealing with 
consular officials from throughout the world, American consul 
officials, has been on a personal basis very, very good. 
They've been professional. They've been polite. They've been 
responsive when we personally get involved. I just talked to 
one last week, and they've been great to work with.
    My question, or my first question both to you and to 
Homeland Security is there are students already enrolled in 
American institutions in central Ohio, where I represent, that 
have experienced difficulties in the past.
    And they also have nervousness, anxiety to travel back home 
on a temporary basis, whether it be for an emergency, whether 
it be for a wedding. And so they're concerned about leaving and 
then returning to resume their studies in America. Is there a 
way, or what are your thoughts about allowing students to meet 
with officials here to somehow alleviate that anxiety or 
concern about leaving and then reentering the country to come 
back to study at Ohio State? Is there anything that can be done 
to make that process better?
    Mr. Edson. Thank you for the question. We have reached out 
a lot to student groups and have a plan now over the coming 
year to do even more of that, as opposed to talking to academic 
groups, we're actually talking to the foreign student 
populations in a lot of these universities to address their 
questions and to address exactly these concerns.
    Unfortunately, I think the changes in the security 
screening process that resulted in delays started in about the 
summer of 2002. The changes in the interviewing requirements 
started in the summer of 2003. So the current crop of students 
have all probably lived through or were immediately preceded by 
people who were affected by some of these processing delays. So 
there's a perception issue there to be overcome.
    There also is a challenge for anyone who is trying to 
travel on a short break, like their winter break, and renew a 
visa, depending on where they're going, they may have 
difficulties in working out the logistics of that. So we 
encourage them to plan ahead and try to get an appointment 
before they ever leave the United States.
    We've asked our posts overseas to make changes to their 
appointment systems. They're not all in place yet, but we want 
all of those appointment systems to be accessible from anywhere 
in the world so that a student in that situation could more 
easily make an appointment before leaving school and know with 
assurance that they had an appointment already during their 
winter break when they go back home.
    By changes like that, we're hoping to address these kind of 
concerns, but I think it will take a little bit of time to get 
the message out.
    Mr. Tiberi. Mr. Cerda?
    Mr. Cerda. We at DHS also echo working with DOS the 
importance of communication and outreach, and it's not just 
only with the universities, the exchange sponsors, but also 
with the student associations.
    We have in the past, and we're very aggressive with respect 
to making sure that the phone lines are available for the 
students, that the website is properly accurate. At the same 
time, we also--with certification, clearly part of work is with 
the universities and their designated school officials there 
who handle the foreign students. They're clearly an important 
part of that scheme, and we are constantly in touch with them.
    Taking it a little further, even recognizing sometimes that 
a student may overlook one of these issues and to receive the 
proper, you know, approvals from their school official prior to 
departing, we also work with Customs and Border Protection and 
the inspectors at the ports of entry, at the airports.
    We do have still a 24/7 capability that if they do 
encounter an individual who may not meet the technical 
requirements of SEVIS or the regulations, that they do exercise 
discretion after doing the proper checks, after doing the 
proper contacts. And to the tune of I believe in the high 
periods of time, they look at and do special processing of the 
students at about a thousand students a month.
    So we want to make sure, as I said, that we have the 
sufficient safeguards, but at the same time, it's not a hard 
and fast situation with these individuals. We understand we're 
dealing with students.
    Mr. Tiberi. Well, I appreciate that. I hope you just keep 
that in mind. I just dealt with one last week where someone had 
to apply or is applying for a visa waiver because of an 
overextended stay, dealing with the fact they tried to contact 
your offices, and by the time that fell through the process, 
they ended up overstaying--well, yeah. If you could be 
sensitive in terms of trying to allow students to get through 
to the proper people before they leave, if they have to leave, 
particularly in an emergency situation, and reenter.
    Mr. Edson. Definitely.
    Mr. Tiberi. I know my time is about to expire. I appreciate 
you all coming today and testifying and I hope to work with you 
in the future.
    Chairman McKeon. Thank you. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I'd like to ask my 
first question to Stephen Edson.
    Would you please give us one example of MANTIS cases where 
student applications would be denied by the special team of 
employees, and what would happen to that case? As I understand 
it, MANTIS is a sensitive technology area that we are concerned 
with here in our country.
    Mr. Edson. Thank you. In the MANTIS program, students or 
scholars, researchers or business travelers as well, who are 
traveling to the United States to undertake study, discussion, 
purchasing in certain areas of nonproliferation concern, 
sensitive dual use technology, are screened by an interagency 
panel to see if there are possibilities of modified use of that 
technology, either for purposes of proliferation or to undercut 
U.S. competitiveness or superiority in the weapons fields, any 
of the weapons fields. That interagency group makes 
recommendations. Each agency makes recommendations to the team 
that works for us in the visa office. And based on their 
instincts, their knowledge of how that technology is used, our 
research into the applicant's background, the sponsoring 
organization for official travel in their home country, on rare 
occasions the visa might be denied under the section of the 
Immigration and Nationality Act that prohibits activities 
resulting in proliferation concerns.
    The rate of denial is actually fairly low. The rate of 
review is also quite low. Again, it gets a lot of attention 
because disproportionately I think this screening is done 
against Chinese students in the higher sciences. There are a 
lot of Chinese students in the higher sciences, and that brings 
them in.
    Mr. Hinojosa. So you say that there are very few that have 
been denied. What happens to the application to that case?
    Mr. Edson. When someone is denied under that section of the 
law, we would instruct our post overseas to--we would make the 
finding in Washington, instruct them to deny the visa under 
that section of the law, and the visa is denied. The 
information is already, by virtue of it having been vetted 
through the interagency community, it's already available to 
those agencies in the United States that have an intelligence 
interest in that material.
    Mr. Hinojosa. I'd like to ask you, I'm sure that you do a 
lot of communication with the academic community, so give us an 
example of where you changed the visa process as a result of 
your consultation with our universities over the last couple of 
years.
    Mr. Edson. In addition to some of the other things I 
mentioned about transparency and predictability, we have 
revised our guidance to consular officers overseas.
    As you all may be aware, one of the primary reasons that a 
nonimmigrant visa is denied is because the visa category has a 
requirement that the applicant prove that they have a residence 
abroad that they intend to return to. This applies to student 
visa applicants.
    But we're very, very clear with our consular sections as a 
result of talking with the academic community that students 
face a slightly different challenge here. A student normally is 
going to be relatively young, almost certainly unemployed, or 
they wouldn't have time to be a student. They tend to be 
single. They tend not to own property. So we have revised all 
that guidance and shared it with our consular officers in the 
field to remind them that they're looking at students with a 
different filter than they would a business traveler or a 
tourist in the United States.
    Mr. Hinojosa. Thank you. My next question goes to Mr. 
Cerda. Do you believe we have struck the right balance between 
security and the academic needs of both students and the 
institutions that they serve? And if so, is this balance 
something that will continue to evolve as we refine whatever 
efforts we take to secure the U.S. from terrorist attack?
    Mr. Cerda. Thank you for the question. We believe in DHS 
and in ICE that we have approached this in a manner to meet 
that balance, and I think we've--by no means is this a done 
deal. We are going to continue to work with the universities, 
with the Department of State. There is always room for 
improvement is our belief, and through communication, we'll get 
to that point.
    But we have addressed many of the issues raised in approach 
of meeting the demands of the proper national security concerns 
as well as to facilitate the entry of lawful students, to 
continue to make the United States a destination for foreign 
students.
    So I do believe we've met that balance to date. We're going 
to continue to improve it. And in terms of national security, I 
do think that together by working in this manner we have 
enhanced it.
    Mr. Hinojosa. Thank you. This is very interesting to me, 
because I am a real strong believer of these international 
students being in our schools and our universities.
    I want to ask one last question, Mr. Chairman, if time 
permits.
    Chairman McKeon. Maybe we could--
    Mr. Hinojosa. Get it on the next round?
    Chairman McKeon. Please.
    Mr. Hinojosa. With that, I yield, then. Thank you.
    Chairman McKeon. Thank you. Mr. Kuhl.
    Mr. Kuhl. Thank you, Mr. Chairman.
    Mr. Edson, I was interested in your testimony and one 
particular part where you were talking about the relationship 
with this country with China and what is I guess perceptibly a 
problem with students coming from China to this country for 
their academic career.
    I have a college in my district that I represent that has a 
program where they actually teach in China and have an 
enrollment of about 2,000 students, which I think at this 
point, which is I think probably the largest provider of 
educational services being provided by an institution based in 
this country.
    But the comment came up that they were having difficulty 
accommodating the needs and desires of Chinese students to 
actually come and enroll in a program here. And I'm just 
wondering if you are finding that experience, if that comment 
is real that I received, and if it is, what can be done to 
accommodate those students who want to come to this country 
from China?
    Mr. Edson. China is now and has been for a while the 
largest source of foreign students in the United States. Our 
posts in China all process a very large number of these cases. 
I'm not sure what the specific difficulty the school might have 
been mentioning was.
    The volume of work in China is high, and there can be 
processing--I mean, there can be time involved in getting an 
appointment unless school is coming up. I mean, as I said 
before, is school is starting imminently, we'll make sure they 
get their appointment and get processed.
    Other than that, I'm not sure. MANTIS screening, as I 
suggested, is not really an issue anymore. The issue with the 
nonimmigrant intent still exists, but bona fide students 
coming--really intend to study in this country and can afford 
to do it, should be able to obtain visas to do that.
    Mr. Kuhl. What would be the average time from an 
application to the granting of a visa for a student in China?
    Mr. Edson. Two days. Around the world it's 2 days for any 
type of visa, two to 3 days.
    Mr. Kuhl. And China is no different than any other country?
    Mr. Edson. No. The only difference I think is volume and 
the much higher percentage of Chinese students who are 
interested in advanced scientific studies that get them into 
the MANTIS process.
    Mr. Kuhl. OK. Thank you. I yield back my time.
    Chairman McKeon. Will the gentleman yield?
    Mr. Kuhl. Yes.
    Chairman McKeon. How many students do we have coming from 
China here for education?
    Mr. Edson. I was afraid you were going to ask that. I'll 
have to take the question and get back to you.
    Chairman McKeon. Could you do that later today?
    Mr. Edson. Sure.
    Chairman McKeon. OK. Thank you. And has that dropped? And 
do you know if that is dropping because it's difficult for them 
to come, or is it because their schools are getting better over 
there and they're saying home and getting an education? Some of 
us are going there tomorrow. This is why I want--
    Mr. Edson. OK.
    Chairman McKeon. This is what we want to follow up on.
    Mr. Edson. Sure.
    Chairman McKeon. Thank you very much. Mr. Wu.
    [No response.]
    Chairman McKeon. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chair. Well, I don't need to 
repeat, probably, how important this is to us. I don't mean to 
us here in Congress, but to us as a country. I'm looking at the 
figures that, despite the improvement, I think we still have 
some way to go.
    The Council of Graduate Schools reported another 5 percent 
decline in international graduate student applications from 
2004 to 2005, following a 28 percent decline the year before. 
Fortunately, it was not another 28 percent decline.
    But I think that 5 percent decline indicates a continuing 
problem with student interest still low, for a variety of 
reasons, surely not all of which have to do with your 
procedures. But I would ask, Mr. Chairman, that the report of 
the Council on Graduate Schools called ``Findings from the 2005 
International Graduate Admissions'' survey be included in the 
record.
    Chairman McKeon. Without objection, so ordered.
    [The information referred to has been retained in the 
Committee's official files.]
    Mr. Holt. Thank you. One of the things that you spoke 
about, Mr. Edson, was some effort to communicate abroad that we 
have a more friendly and efficient method now. Can you say a 
little bit more? I mean, speaking to a couple hundred students 
in Beijing is one thing, but reaching out to millions of 
students in other countries I think is--it is more along the 
lines of what we'd like to see in an aggressive public 
relations program, so that students abroad know that the system 
has improved here.
    Mr. Edson. We have asked all of our posts overseas and 
drawn to the attention for our chiefs of mission, our 
Ambassadors, the importance of this issue and ask them to seek 
out opportunities to make these points to speak to not only 
student but business and tourist community groups as well.
    In addition, we've been discussing with the academic 
community the idea of linking, when they do recruiting or 
informational visits overseas, making sure that they speak with 
our consular sections and if the forum is right, providing a 
consular officer to go out with them and discuss U.S. visa 
procedures at the same opportunity, sort of to tag team 
together so they can discuss the schools, we can discuss the 
way you get into one, or get the visa to get into one.
    Mr. Holt. Mr. Cerda, the upgrade to the SEVIS system is 
certainly welcome. What is the procedure for correcting the 
data in there? What role can the universities have to 
accelerate the correction so that we can get--so we can remove 
any errors in the system?
    Mr. Cerda. Data integrity is very critical for the system 
to work on both sides, for DHS as well as the schools. We are 
constantly through the help desk, our response teams that we 
have, working with the universities, with their designated 
officials, to review cases where if there is a termination that 
may be overridden by other factors--a change of status, some 
other information that became available subsequently--we are 
capable of doing those changes directly through that 
interaction.
    Further, we internally are also reviewing the cases. Prior 
to a lead being sent out to the field for action, we do our 
reviews of that information too to make sure that the 
information is correct. And if the termination is no longer a 
termination, it's pretty straightforward entry into SEVIS to do 
that.
    It depends, too, on the volume. If we get a university 
coming with significant numbers of proposed changes on status, 
we would essentially have to go through each one of those and 
go through it. But, again, absent anything that is out of the 
ordinary there, it's a pretty straightforward entry into the 
system on our behalf.
    We are looking at in terms of policy facilitating this 
process to give the schools more flexibility in correcting some 
of these issues directly on their own. Things that don't raise 
issues of integrity, we're looking at to see whether that can 
also help facilitate the process and make the records, you 
know, as clean as possible.
    Mr. Holt. OK. Thank you. In the few seconds that remain, 
the NSEERS registration program seems very opaque to 
universities. And it appears that there might be some changes 
in the works. Do you have any recent report, or can you make a 
report today about whether there are changes either restrictive 
or liberalizing in that?
    Mr. Cerda. On NSEERS, as Secretary Ridge announced in the 
past, we did scale back the approach that we use NSEERS for. 
It's still utilized at the POEs, but the call-ins that were out 
occurring in the communities, those ceased. And we're also 
looking at it more in terms of a targeted fashion in certain 
instances, using intelligence rather than, as we had in the 
past when we initiated NSEERS, do the massive call-ins for 
registration. We're now looking at more targeted approaches 
based on intelligence, lead-driven issues.
    We recognize the sensitivities on it. I know CVP is aware 
of that too, and they've gone through training also in terms of 
just customer service in terms of processing and communicating 
the needs of NSEERS. That's where we stand right now though.
    Mr. Holt. Thank you. Thank you, Mr. Chairman.
    Chairman McKeon. OK. The gentleman's time has expired. We 
have been called to the floor for votes. We have three votes. 
It will probably take us about 20, 25 minutes. If you can bear 
with us, we'll take a recess, and we have other questioners 
that want to question when we get back. So we'll be back as 
quickly as we can.
    Mr. Holt. Mr. Chairman, you will accept questions for the 
record if we're unable to continue?
    Chairman McKeon. Of course.
    Mr. Holt. Thank you.
    [Recess.]
    Chairman McKeon. The Committee will come to order. Mr. 
Price.
    Mr. Price. Thank you, Mr. Chairman. I appreciate that. I 
haven't been here long, but I do know that 25 minutes is never 
25 minutes, so I appreciate your patience in sticking around.
    My understanding is this program began for foreign students 
coming here seeking that visa after 9/11, this increased 
security program. Do you have the data on numbers of students 
that have applied since then and numbers rejected?
    Mr. Edson. Yes. I would like to take the question and get 
it back to you so I can give you accurate data. But just to 
clarify, you were interested in student visa application trends 
over the period since 9/11?
    Mr. Price. Yes.
    Mr. Edson. OK.
    [The information referred to has been retained in the 
Committee's official files.]
    Mr. Price. And then comparing that to before. In other 
words, are we--is this worthwhile, what we're doing?
    Mr. Edson. From the consul perspective overseas, just 
processing the visa, I can tell you that the refusal rate for 
students has actually declined slightly since 2001, slightly 
enough that it's almost the same number. We actually haven't 
had significant changes.
    The total percentage of students being issued visas, 
though, of the applicant pool is going up. We speculate, and 
it's just speculation, but we speculate that one of the reasons 
for that may be the fact that SEVIS, the DHS program, has 
eliminated improperly completed I-20's or fraudulent I-20's, 
the form that students submit to us from the school in order to 
get a visa because of the automated nature--the nature of the 
automated system, they can't fill it out incompletely anymore. 
But that's just speculation. We're not sure there's a causal 
link there.
    Mr. Price. Do you think that this program has increased our 
security to any significant extent?
    Mr. Cerda. I think this is a good example of where Homeland 
Security has definitively been improved and enhanced by 
implementing SEVIS. Before, the vulnerabilities that existed in 
the I-20 process, the inability to determine whether in fact 
you had a genuine I-20 or whether it was a forged, fraudulent 
I-20, that's been eliminated.
    The 70,000 universities that had the authority to sponsor 
somebody to come into the country without investigation or 
yearly, twice a year inspections, that's been eliminated. And 
again, just a paper process that existed in the past has been 
eliminated and allows the tools to make it more efficient in 
visa processing, but also gives the ICE agents a better 
capability to hone in and identify who is in the country, who 
has violated their status, and using the terrorist data bases, 
prioritize and make some actions, targeted actions that take 
some very dangerous people, potentially dangerous people, off 
the streets and removed from the United States.
    So yes, SEVIS is a good example of where national security 
has improved since 9/11.
    Mr. Price. And I suspect that's the case, but that's only 
true--we can only say that's true if we in fact document that. 
And so I would appreciate the numbers on the rejections.
    It's my understanding also that this is under DHS, but that 
the exchange students are under State. Would you comment on 
that as to whether or not that's a duplication or whether we're 
not doing what we ought to do as it relates to the exchange 
students and whether we ought to meld them together?
    Mr. Cerda. Certainly. The SEVIS program, the management for 
the program, the software, the infrastructure that supports it, 
is purely with DHS. The design of that program is a DHS 
program.
    The exchange visitor programs, the responsibility for 
managing the program sponsors, falls with an office in the 
Department of State. And so that office, ECA, Educational and 
Cultural Affairs, that manages the logging, tracking of those 
exchange visitors and then the entry of the appropriate data 
into the SEVIS system.
    And it's different than the schools. There isn't any 
overlap there necessarily since the program sponsors and 
schools are different things, even if they're the same 
institution, they're being approached through a different 
structure.
    Mr. Price. Is there any duplication of work there, or would 
it be more efficient to have them both under DHS?
    Mr. Cerda. Based on my understanding of the program, I 
don't believe so. But--yeah, I don't believe there is 
duplication. The system is there, and it's a uniform system. We 
will have it up regardless. And the entry from DOS and our 
entries, I don't see any duplication occurring there.
    Mr. Price. Thank you, Mr. Chair. I yield back.
    Chairman McKeon. The gentleman yields back. One other 
thing. The 500,000 and the 600,000 numbers I talked about, I 
don't think we were comparing apples to apples, so I understand 
that we're working to get those numbers clarified, and we'll 
have that straightened out in the record. Thank you very much. 
Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chair. We'll, I'm a little 
baffled, based on the last discussion. I have some other 
questions. But I serve on the International Relations 
Committee, and we had a hearing on the 9/11 Commission, 
including some staff and then talking to people from the State 
Department, and they pretty much contradict--and I'll submit it 
for the record, Mr. Chair--what we just heard about how 
Homeland Security through SEVIS has just kept America safe from 
attacks and all these terrorists have been weeded out.
    I think it's important that we secure our borders. I think 
it's important we know who's coming in. But either they don't 
have any correct information under the Freedom of Information 
Act, or you have something that's been classified or whatever, 
but I agree with the gentleman. I think we need to see 
documentation.
    The biggest concern that we were hearing in the 
International Relations Committee was just having the regular 
tourist visas and the passport and all the enhancements that we 
were trying to get in place in airport security as people enter 
and go back and forth between countries, there's a group of 
countries that we have a different standard for tourists alone 
in it.
    So I would very, very much be interested in seeing your 
documentation, sir.
    I have some questions that I'm going to submit from my 
colleagues into the record, as well as some statements that 
they have.
    But I just want to take this in a big picture here now, 
both from State and Homeland Security.
    You folks have all been asked, especially the Department of 
State, has been asked to do a lot out of hide. Your budget has 
not increased with all the different demands that Congress and 
the world changes since September 11th has put onto you. I know 
you have employees that are working extraordinarily hard. But 
to that point, you have in your testimony that we have more 
people in the consular offices, that the budget has been 
increased.
    And I would very much be interested--and maybe you can't 
answer this off the top of your head now, so you can submit it 
later--as to all this increased staffing with the embassies--
because I travel abroad quite a bit, with all the demands that 
State has been asked to put on, I mean, really, how many hours 
of those individuals' time in the countries that we had the 
most foreign student applications, how have we really beefed 
that up?
    And what is in the President's budget that went directly on 
the bottom line to help you fulfill this mission? If you don't 
have that with you today, as you didn't have--we don't have the 
numbers of the exact visa--I would be very interested in seeing 
that.
    [The information referred to has been retained in the 
Committee's official files.]
    I have a question, and it has to do with going back to 
getting the clerical errors taken care of. And I would like DHS 
to really walk me through, if a college--College X finds that 
in reviewing something that they really checked very 
inadvertently something off in the wrong box, and it's brought 
to their attention--how quick is the turnaround before that is 
fixed?
    Mr. Cerda. That can be done within days, if not that same 
period right there, that same day. What it's--the technical 
fixes are pretty straightforward on our side. What may take 
some time in the oddest cases is verification of whether that 
is in fact a genuine termination or not, if there are other 
issues pertaining to that. But if it was a clerical error on a 
student at a university, that should be handled pretty quickly 
in terms of days.
    Ms. McCollum. When you talked about how students faced 
difficult challenges for saying where their residence is, I 
have college-age students, and I receive their mail, but my son 
is studying abroad right now. My daughter stays--is living with 
friends and things like that. So it's really challenging even 
for college students here.
    How--one of the things that I have heard from embassy 
staff, and my heavens, I can certainly appreciate it--when 
things get to be a little gray, you don't want to be the person 
who signed off on saying, well, I accepted this for a residency 
and then have perhaps that person come under review for being a 
terrorist or something like that. How clear are those 
directions to staff?
    And the reason why I bring it up is with the AIDS orphan 
population that is just exploding in Africa and us wanting to 
reach out more and more to Africa to keep that country stable 
and from becoming a haven for terrorists, how specifically 
addressed is that, or can you get me some information as to 
exactly what that question looks like and how you handle the 
issue of someone who might be an AIDS orphan?
    Mr. Tiberi [presiding]. The gentlelady's time has expired, 
but go ahead and answer the question.
    Mr. Edson. Thank you. And it is complicated, because 
situations will vary with each applicant. They'll vary with 
every country. So our consular officers have the ability on the 
ground as they gain experience in the country and work with 
their colleagues who have been there longer to analyze the 
cases in a way that's fair based on the circumstances. What's 
normal in one country might be completely--we have countries in 
the world where being wealthy is actually the first sign that 
that person is likely to jump to the United States and stay 
illegally, and other countries where the opposite is true.
    So we allow consular officers broad discretion to apply the 
law, taking into account local circumstances, so that it's fair 
as possible to the applicant. At the same time, the law, the 
Immigration and Nationality Act, does place the burden on the 
applicant to prove that they qualify for the visa. We're not 
doing that for them, so they'll have to come in and make their 
best case, and then we interpret it based on local 
circumstances.
    It is a hard call in many places such as the countries of 
Africa where you mentioned. But visas are issued everywhere, 
even the poorest countries in the world, there are applicants 
who qualify every day.
    Mr. Hite. Congresswoman, if I could add to your question 
about the time it takes to make some of these data base fixes, 
I'd point to what we have in our statement in talking to some 
of these educational organizations about those data fixes. And 
depending on visa type, it varies, but what we were told is 
that there are times when data fixes take months, even over a 
year to fix. So it's not a matter of days in all cases.
    And so, I'm sure one's position on that is going to depend 
on where they sit. And I think from your next panel, you may 
hear about some of those.
    Mr. Tiberi. Thank you. I'm going to recognize Mr. Kildee 
for a brief statement.
    Mr. Kildee. This will be a brief statement. I really think 
we have to get a better handle on numbers. I think there's been 
a real vagueness here. If I were one of the reporters over 
there, I wouldn't know how to write the story, because the 
numbers are rather vague, and they kind of shift around a bit.
    Has the growth slowed since 9/11? I think to the degree you 
can get us some--I don't know why we aren't getting more 
significant numbers or meaningful numbers to us. I'm sure down 
the hallway at the baseball hearing they got better statistics 
down there than we have in here.
    So I would like to really have you work on some numbers so 
both the press and ourselves can understand has the growth 
slowed down? Is there more students, less students, since 9/11? 
There's a certain vagueness yet I think that--I do think the 
system has improved since we started our hearings, though, I 
think there's no question about that.
    Thank you.
    Mr. Tiberi. Thank you, Mr. Kildee. And I just want to 
conclude by saying I concur with Mr. Kildee, and I hope that 
you all will do your very best to share with us some more 
accurate data.
    [The information referred to has been retained in the 
Committee's official files.]
    I thank you all for testifying and for your time and your 
valuable testimony. You may now step down, and I'd like to call 
the second panel forward to be seated. Thank you all.

STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, SUBCOMMITTEE ON 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    I'd like to thank the witnesses for being here today. Thank 
you for your patience. Appreciate you sharing your thoughts and 
experience with us. And as elected officials, we must preserve 
the safety and security of all our citizens, but we also want 
to ensure that students from around the world have access to 
the best education in the world right here in the United States 
of America.
    And I believe that many of my colleagues would share the 
view that having international students attend our universities 
and colleges throughout America is one of the best ways to 
boost worldwide appreciation of not only our educational system 
but our form of government and our country.
    These are students who are future leaders in their 
countries, and they're the best Ambassadors to the way that we 
live here in America.
    I would like to just take this opportunity to put my formal 
remarks, opening statement, into the record, and thank you 
again for your willingness to testify here today, and I want to 
recognize the Ranking Minority Member of the Subcommittee on 
Select Education, Mr. Hinojosa, for a statement that he may 
have.
    [The prepared statement of Mr. Tiberi follows:]

 Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on Select 
          Education, Committee on Education and the Workforce

    Good morning, and welcome. Thank you all for being here today, and 
to our witnesses for taking the time to appear before the subcommittees 
to share your insights and experiences regarding current systematic 
operations that monitor international students attending postsecondary 
institutions in the United States.
    Each year thousands of international students and scholars apply 
for visas to enter and study in the United States. The Student Exchange 
and Visitor Information System, commonly referred to as SEVIS, was 
initiated in July 2001 to collect and process information on foreign 
students, exchange visitors, and their dependents prior to their 
entering the United States, upon their entry, and during their stay. It 
became operational in July of 2002, and was required by all schools and 
exchange programs, and for all students by August 2003. Throughout the 
implementation of the system, problems have existed and were noted in a 
similar hearing in September of 2002. Today, we will hear about the 
current operation of the system, notable improvements, and outstanding 
issues associated with SEVIS and students visas.
    Reports have referred to the U.S. visa process as a burden on 
foreign students, and cite the complex process as one of several 
reasons in the annual decline in foreign student applications for 
enrollment in U.S. postsecondary institutions. Recent reports, namely 
the GAO report released last June and another last month, also give 
praise to the recent processing times and significant improvements in 
the system, especially the Visa Mantis program. We will hear more from 
Mr. Randolph Hite of the Government Accountability Office on the 
performance of the system, the purpose of the Mantis program, and the 
analysis and conclusions of the reports. I am very interested to hear 
about the systematic operation from the consular office abroad to the 
postsecondary institutions here in the United States.
    Institutions of higher education have also carried an important 
role in the implementation of SEVIS and the required reporting on each 
foreign enrolled student. Schools and exchange visitor programs manage 
the stays of foreign students, visitors, and their dependents 
throughout their time in the United States. Information continually 
updated in the system includes school attendance each semester, 
employment or outside training, and changes in U.S. residential 
address. I look forward to the testimony of two higher education 
professionals on the management of SEVIS at the campus level, and their 
experiences with its requirements and operation.
    As elected officials, we must preserve the safety and security of 
our citizens. We also want to ensure that students from around the 
world continue to have access to the best education the world has to 
offer, and partake in our freedoms and ideals. I believe, as I know my 
colleagues believe that international students are enormously 
beneficial to this country and to the classroom. There is no better way 
to boost worldwide appreciation for democracy and market-based 
economics than to invite future international leaders to see it and 
live it for themselves--to give direct exposure to America and 
Americans. When foreign students and visitors return to their home 
country, they take with them a first-hand understanding of this country 
and its values. Certainly, some of America's strongest supporters 
abroad are those who have spent time in this country. Having said that, 
we must also maintain a responsible system that ensures those who wish 
to enter this country to study are doing just that, and are accounted 
for during their time here.
    Again, I want to thank our witnesses for their willingness to be 
here today to update Members of Congress on these issues, and offer any 
suggestions where Congress can assist the efficient and effective 
operation of the SEVIS system.
    With that, I turn to the Ranking Democratic Member of the 
Subcommittee on Select Education, Mr. Hinojosa, for any comments he may 
have.
                                 ______
                                 

STATEMENT OF HON. RUBEN HINOJOSA, RANKING MEMBER, SUBCOMMITTEE 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Mr. Hinojosa. Thank you, Chairman Tiberi. I also wish to 
acknowledge and thank Chairman McKeon and Ranking Member Kildee 
for their leadership in calling this hearing.
    I want to say that SEVIS is very important to me also as it 
is to our chairman because I have seen the benefits that are 
derived in our universities by having the students from abroad 
as part of our education system. My wife studied in Italy. My 
daughters studied in Mexico. And so I know that that type of 
education is priceless. I welcome the witnesses, and I'm 
looking forward to hearing your testimony.
    Our system of higher education in America is world-
renowned. It's been a magnet for the top academic talent from 
all corners of the globe. According to a recent Times of London 
survey, the U.S. is home to 11 of the top 20 universities in 
the world. International education is a $13 billion per year 
industry that has kept the U.S. on the cutting edge of research 
and innovation.
    However, in the post-9/11 world, we have seen our 
competitive edge in higher education slip. In the immediate 
aftermath of the terrorist attacks of 9/11, we had to confront 
fear and had to strengthen our national security. Thus, we 
established the Student and Exchange Visitor Information 
System, which I'll refer to as SEVIS. The new system faced many 
challenges from a rush to implementation to a major overhaul of 
the agencies responsible for issuing visas and managing the 
system.
    I am pleased to learn that Immigration and Customs 
Enforcement has made some progress in implementing SEVIS. But I 
also understand that there are still areas for improvement, and 
a lot of information and data that our Committee needs to have 
so that we can move forward. We need to regain our lost 
momentum.
    The international student market is increasingly 
competitive. We must ensure that our processes, while 
safeguarding our national security, do not discourage 
international students from seeking to study in our United 
States. I'm interested in hearing our witnesses' views on how 
we can achieve this mission statement.
    The benefits of the global exchange of ideas on our college 
campuses are in our national interest, our economic interest 
and our national security interest. The President just 
appointed one of his closest advisers, Mrs. Karen Hughes, to 
the post of Under Secretary for Public Diplomacy, to enhance 
our nation's image abroad. So obviously the administration 
knows of the importance of what we're discussing in our 
Committee.
    One of the most potent tools and long-lasting strategies to 
achieve this goal is to ensure that our universities and all 
these institutions of higher learning remain open to the best 
and the brightest around the world.
    Again, I would like to thank Chairman Tiberi for calling 
this hearing, and I would like to thank the witnesses for 
helping us advance this discussion.
    With that, Mr. Chairman, I yield.
    [The prepared statement of Mr. Hinojosa follows:]

   Statement of Hon. Ruben Hinojosa, Ranking Member, Subcommittee on 
       Select Education, Committee on Education and the Workforce

    Good Morning. I would like to thank the subcommittee chairmen for 
calling this hearing. I welcome the witnesses and am looking forward to 
hearing your testimony.
    Our system of higher education is world renowned. It has been a 
magnet for the top academic talent from all corners of the globe. 
According to a recent Times of London Survey, the United States is home 
to 11 of the top 20 universities in the world. International education 
is a $13 billion per year industry that has kept the Untied States on 
the cutting edge of research and innovation.
    However, in the post 9/11 world, we have seen our competitive edge 
in higher education slip. In the immediate aftermath of the terrorist 
attacks of 9/11, we had to confront fear and strengthen our national 
security. Thus, we established the Student and Exchange Visitor 
Information System. The new system faced many challenges--from a rush 
to implementation to a major overhaul of the agencies responsible for 
issues visas and managing the system. I am pleased to learn that 
Immigration and Customs Enforcement has made significant progress in 
implementing SEVIS, but I also understand that there are still areas 
for improvement.
    We need to regain our lost momentum. The international student 
market is increasingly competitive. We must ensure that our processes, 
while safeguarding our national security, do not discourage 
international students from seeking to study in the United States. I am 
interested in hearing our witnesses' views on how we can achieve this.
    The benefits of the global exchange of ideas on our college 
campuses are in our national interest--our economic interest and our 
national security interest. The President just appointed one of his 
closest advisors--Karen Hughes to the post of undersecretary for public 
diplomacy to enhance our nation's image abroad. One of the most potent 
tools and long-lasting strategies to achieve this goal is to ensure 
that our institutions of higher learning remain open to the best and 
brightest from around the world.
    Again, I would like to thank the chairman for calling this hearing, 
and I would like to thank the witnesses for helping us advance this 
discussion.
                                 ______
                                 
    Mr. Tiberi. Thank you. I thank the gentleman from Texas. We 
have a distinguished panel today. It's my pleasure to introduce 
Mr. Lawrence Bell. Mr. Bell currently serves as Director of the 
Office of International Education at the University of Colorado 
in Boulder. In this capacity, he oversees services to 
international students on campus and also assists immigration 
advising and other types of non-academic advising for 
international students.
    Mr. Bell also serves as Vice President for Public Policy 
and Practice with NAFSA, the Association of International 
Educators.
    I also understand Mr. Van Hollen would like to introduce 
the next witness to our panel, so I'd recognize the gentleman 
from Maryland for the purpose of introducing our next witness.
    Mr. Van Hollen. Well, thank you, Chairman Tiberi. And I 
want to thank you and Mr. McKeon and Mr. Hinojosa and Mr. 
Kildee for their leadership on this issue. And before I 
introduce a friend and I think a great leader in the state of 
Maryland and around our country, let me just say a couple of 
words if I might, Mr. Chairman.
    As you and others have said, I think this is a very 
important issue. The fact of the matter is, we do have a big 
crowd of people in the other Committee I serve on, Government 
Reform, looking into the question of steroids use in baseball, 
and that is obviously a very important issue as well. But we 
should have a fuller room here, because the consequences of 
decisions made on the issues we're talking about are going to 
have very long-term consequences for our country.
    Obviously, we want to keep people out of this country who 
seek to do us harm. That's in our national security. It's also 
in our national security interest to make sure that we have a 
strong economy and to make sure that we have a presence around 
the world and a positive image around the world.
    And I've been alarmed by the statistics that have shown the 
rapid drop-off in the number of foreign students here because 
of the consequences it has on high technology sector, the 
consequences it has on our economy, and the fact that it's not 
just that we're not being made stronger, but those students are 
going somewhere else. Those students are going to our 
competitors, our economic competitors around the world. So what 
we're losing, they're gaining. And I think that if we don't 
correct the problem quickly--and the problem with this of 
course is perceptions.
    Once perceptions take root, it becomes much more difficult. 
Even as steps have been made to make the process better, and I 
want to congratulate Assistant Secretary for Consular Affairs 
Maura Hardy at the State Department. We've worked with her and 
others to try and improve the situation, and they have. But we 
need to be very careful because of the signals that have been 
sent. We're going to have to work double hard to reverse the 
signals that have been sent that people may be more unwelcome 
here.
    With that, Mr. Chairman, let me introduce the President of 
a great institution, the President of the University of 
Maryland at College Park. We were very lucky in the state of 
Maryland many years ago to be able to recruit Dan Mote, Dr. 
Mote, to the state of Maryland. He has dived in from the very 
beginning, an energetic leader. And as we talk about 
Ambassadors and how the people who learn here in this country 
are great Ambassadors for us overseas, he's a great Ambassador 
for the presidents of colleges and universities around our 
country. And I really look forward to his testimony.
    So thank you for being here.
    Mr. Tiberi. I also want to tell the gentleman from Maryland 
that you also recruited back to Maryland a good friend of mine, 
Britt Kerwin, who was with the Ohio State University, and we 
miss him.
    Mr. Van Hollen. Well, thank you. We are very happy to have 
Britt back, and we have a great team. The only thing we're 
going to be working extra hard on next year is to get the Terps 
in the NCAA. But thank you, Mr. Chairman.
    Mr. Tiberi. Thank you. And I want to remind members that we 
will impose a 5-minute limit on all questions and remind the 
panelists that you have a red light system in front of you. And 
once the red light goes off, if you could wrap up your remarks. 
And I'll also remind you that your full text will be submitted 
for the record.
    And with that, Mr. Bell, we'd love to hear your remarks 
today. Thank you for being here.

      STATEMENT OF LAWRENCE H. BELL, DIRECTOR, OFFICE OF 
  INTERNATIONAL EDUCATION, UNIVERSITY OF COLORADO, BOULDER, CO

    Mr. Bell. Thank you very much, Chairman Tiberi. I'm going 
to begin by saying thank you to all of you for considering this 
very important issue. It is an important issue in education 
today, and we appreciate the time you're spending on it.
    My name, as you have said, is Larry Bell, and I'm here as 
Vice President for Public Policy of NAFSA, the Association of 
International Educators, on behalf of our over 9,000 members 
across the country and around the world.
    I've worked in international education for 30 years and am 
currently the Director of International Education at the 
University of Colorado at Boulder. I particularly enjoyed the 
comments about study abroad. We are an office that does both 
study abroad and international students. And so as an import-
export office, I'm glad to see the export side represented here 
as well.
    I want to begin by thanking you for taking the time to 
consider all of these issues, which are extremely important to 
our country. They are important to our institutions, since 
international students and scholars provide diversity of 
thought in the classrooms, laboratories and other places on our 
campus. They bring the best and the brightest from around the 
world and bring them to our doorstep. But they also offer an 
opportunity for some of us in some of our programs to provide 
top up enrollment for some very important academic programs on 
campus.
    In addition, these students and scholars are important for 
our country because they contribute directly to our national 
security. These exchanges assist the government in the 
important area of public diplomacy, as we've heard alluded to 
before. And they contribute heavily to our economy--$13 
billion. We are the fifth largest export, service sector export 
industry in the country.
    I also want to thank you for inviting me to provide the 
campus and user perspectives on these issues. Institutions are 
concerned at the moment, because international student and 
scholar visits to the U.S. are down for the first time in my 30 
years in this industry. As we've heard about the Council of 
Graduate Schools report with 28 percent down in applications 
last year, an additional 5 percent this year. Our association 
is currently in the middle of a broader survey that would look 
at both graduate and undergraduate enrollments and admissions 
to examine those numbers more closely. So perhaps we can 
contribute to your fuller accounting.
    You asked me to address two specific issues, SEVIS and visa 
delays. And I did so in great detail in my written statement, 
but let me highlight a few things for you here. In a 2003 
whitepaper from our association, and I have a copy here. I 
think it was submitted for the record, but I would like to do 
so if it hasn't been. And that whitepaper called for a unified 
visa policy that encourages student and scholar exchanges as a 
means of promoting national security. We have made progress on 
these recommendations, as you have heard before.
    I do want to say thank you as well to the Department of 
State for all that they have done in this area. Former 
Secretary Powell, Assistant Secretary Maura Hardy and the folks 
that work in Consular Affairs have been very helpful in moving 
us forward in some of these areas. Priority has been given to 
students and scholars for interviews at posts around the world, 
and the electronic system for processing security clearances 
has also helped remove some of those delays.
    The Visas MANTIS clearances that we heard about before have 
a disproportionate impact on higher education because they do 
screen people in the area of science and technology. However, 
the GAO report that many of you may have read shows that 
progress has been made, but there is more to do. Indeed, some 
of this may now be more perception than reality. However, in a 
business like ours, perception becomes reality. Many students 
and scholars are afraid to travel for fear of lengthy delays 
when they return home. We personally had a student who wanted 
to return home for a funeral in the family and made a choice 
not to go home because of a visa delay--his concern over a visa 
delay.
    There continue to be a number of lengthy delays, 
particularly in science fields, for academics. SEVIS, let me 
begin here by thanking the people in the Student and Exchange 
Visitor Program for the cooperative nature of our conversations 
over the last year plus. Our association has worked very 
closely with them in terms of moving that forward. There does 
still continue to be problems in this tracking system.
    I'm sorry. I lost my place. We do see a need to improve the 
coordination between Homeland Security and the agencies 
within--sorry--the agencies within Homeland Security. We need 
to have the capability of users to correct the data that they 
have entered. The system allows us to create records, but it 
doesn't allow us to correct even the simplest of errors. We 
need to keep in mind as well that the population that we're 
talking about here is only 2 percent of the total U.S. 
population of visitors on visas.
    Last year has seen some marked improvement on both of these 
issues, and while we have made good progress, we still have a 
distance to go. Data fixes plague our ability to make SEVIS a 
usable system. The less frequent but still extended visa delays 
make it difficult to bring students and scholars to the U.S. 
for academic programs that benefit all.
    Although, as I have noted, there have been improvements in 
the past year, the number of students and scholars have 
continued to fall. And perhaps I can shed some light on that 
question later. This is so for a number of reasons, one of 
which is that the fixes continue to be problematic in the 
system, another of which is that we have increased competition 
from traditional sources of competition, like Australia, Canada 
and the U.K. We also have new competition in the form of 
English language programs being offered by German universities 
and Japanese universities.
    In this country, we need to have a comprehensive strategy 
so that we can return to being the destination of choice for 
the world's students. To be clear about this, this strategy 
does not mean government funding or government programs. What 
it means is that we would love to have some help in the area of 
establishing a stakeholders conference to develop strategy in 
order to remain competitive with the rest of the world.
    Thank you for the opportunity to address the Subcommittees, 
and I would be pleased to respond to questions.
    [The prepared statement of Mr. Bell follows:]

     Statement of Lawrence Bell, Director, Office of International 
       Education, University of Colorado at Boulder, Boulder, CO

    Thank you very much for the opportunity to testify before the joint 
subcommittees on an issue of considerable importance for our country
    <bullet>  Important because of the contributions that international 
students and scholars make to education, teaching, and research;
    <bullet>  Important because of the contributions that international 
students make to the U.S. economy--some 13 billion dollars in the last 
academic year, our fifth-largest service-sector export--spending that 
trickles down to innumerable college and university communities across 
the country;
    <bullet>  But important most of all because of the contributions 
that international students and scholars make to U.S. national security 
and international leadership.
    Most if not all secretaries of state who have served since World 
War II would tell you that educating successive generations of future 
world leaders in the United States has been integral to U.S. 
leadership. Secretary Powell spoke frequently and eloquently on the 
point, and Secretary Rice has been no less vocal.
    Most of our leaders who have borne responsibility for protecting 
U.S. national security would tell you that scientific exchange is--and 
long has been crucial for the scientific leadership that underpins that 
security.
    I testify today on behalf of NAFSA: Association of International 
Educators, the professional association of some 9,000 international 
educators at the post-secondary level, of which I am vice president for 
public policy. And I testify on the basis of my on-the-ground 
experience as director of the international education office at the 
University of Colorado at Boulder, a vantage point from which I have 
seen the impact of visa problems and SEVIS problems first-hand.
The Highly Competitive International Student Market
    In the past few years, pre-dating 9/11, the international student 
market has become highly competitive in part because of the development 
of higher-education infrastructure in other countries; in part because 
other countries recognize very well the advantages that international 
students bring, and they want some of those advantages for themselves.
    I am a believer in educational exchange. I've worked in the field 
most of my life. An experience studying in England or Germany or 
Australia or Japan is as valid as an experience in the United States, 
and I don't begrudge any student the opportunity.
    But as a country, we need to recognize that many of our competitor 
countries are implementing explicit strategies for enhancing their 
attractiveness and accessibility for international students. The United 
States has never had such a strategy, and we do not have one now. We've 
always assumed that everyone wanted to come here, so we didn't need to 
do anything to attract them.
    Whatever validity that assumption once had, it lost it well before 
9/11. You can document a 20-year decline in the U.S. share of the 
international student market. But this loss of competitiveness was 
masked by the fact that the absolute number of international students 
studying in this country kept going up, even as our relative share 
declined.

The Effects of 9/11
    Now, however, our loss of competitiveness has been brought home to 
everyone by the market's reaction to measures our government put in 
place after 9/11. In the last academic year, we experienced the first 
absolute decline in the number of international students studying in 
the United States in 30 years. Enrollment surveys conducted last fall 
by my association and others suggest that we will see a further decline 
this year. The Council of Graduate Schools reported last week that 
international-student applications to U.S. graduate schools for the 
coming fall are down for the second year in a row.
    I want to be clear. My association, my university, and I personally 
do not criticize our country's post-9/11 security measures. In the 
immediate aftermath of 9/11, when we did not know if another terrorist 
attack was imminent, it is understandable that emergency measures were 
put in place quickly, and not in the orderly fashion that one might 
wish for in normal times. We might have been critical of the ways in 
which it was done, but we all understood the need for action.
    To its credit, our government recognized almost immediately that 
these measures would have to be adjusted and fine-tuned on the basis of 
practice. I believe that both State and DHS have been conscientious, 
generally speaking, in working with us to ameliorate the worst effects 
of these controls.
    Having said that, much more needs to be done. The process of 
gaining access to this country for education and exchange remains too 
difficult compared to other countries, and SEVIS still has serious 
operational problems that unduly complicate the lives not only of 
university administrators, but also of students.
    We have all heard many times the shibboleth that security trumps 
exchange. I respectfully suggest that that is not the right way to 
think about it. Exchange is part of security. Any measure that 
unnecessarily complicates access to or life in the United States for 
international students, without adding commensurately to our safety, 
undermines our long-term security.
    Let me now speak to the two issues that you asked me to address: 
the visa situation, and SEVIS.

The Visa Situation
    By 2003, it had become clear that the visa regime that had been put 
into place after 9/11 was not effectively serving the national interest 
in robust educational and scientific exchange. In that year, NAFSA 
released what I believe was the first set of recommendations for fixing 
this problem, and we updated those recommendations about a year ago.
    Our white paper, entitled, ``Promoting Secure Borders and Open 
Doors: A National-Interest-Based Visa Policy for Students and 
Scholars,'' identified four problems that needed to be fixed.
    The first was the absence of an operational visa policy. In the 
uncertain, post-9/11 environment, it was very difficult to articulate a 
balanced visa policy. Institutional factors have compounded the 
problem. The legislation creating the Department of Homeland Security 
took ``visa policy'' away from State and gave it to DHS, with State 
retaining the consular officer corps that makes the day-to-day visa 
decisions. But DHS has lacked the institutional capacity to implement 
visa policy. The bifurcation of visa responsibility has not served us 
well. It's very difficult for a consular officer to know how to 
adjudicate visa applications in the absence of effective guidance. In 
that situation, extreme caution rules the day.
    There's nothing wrong with caution. But caution is not a policy. 
Caution without guidance simply paralyzes the process, and leads to 
results that are not in our interest. Among them is the second problem 
that we identified in our white paper: the absence of focus. After 9/
11, consular officers lost much of their discretion on how to process 
visa applications. As a result, much of the officers' time was wasted 
on routine reviews of low-risk applications. Well known scholars, who 
presented no security threat and who had been routinely granted visas 
for years, suddenly couldn't get visas, or found that processing their 
visa applications took so long that the event for which they sought 
admission was over by the time they received the visa. The number of 
visa applications from scientists that were sent to Washington for 
security clearances--the so-called Visas Mantis clearances--skyrocketed 
from about 1,000 in the year 2000 to more than 20,000 in 2003, and the 
review process broke down under the burden. All of this had the effect 
of keeping legitimate people out, and it damaged America's reputation 
for openness.
    The absence of policy produced a third problem that we identified 
in our white paper. This is the one on which most of our colleagues 
have focused. Because of the excess of caution without guidance, 
decision-forcing mechanisms were removed from the inter-agency security 
clearance process that most scientists and people from Arab and Muslim 
countries have to go through. Because the agencies were overwhelmed by 
the twenty-fold increase in applications to process--with no effective 
guidance on what they were supposed to be looking for--visa 
applications from these groups sat around until someone got to them, 
sometimes for months, occasionally for more than a year. This wreaked 
havoc on universities, because we couldn't get our scientists and 
scholars in when we needed them for the start of the semester, for 
example, or to join a research team in a scheduled research project. 
For Arabs and Muslims, it meant that many of them just stopped 
applying, unwilling to undergo the inconvenience, uncertainly, and 
indignity of the prolonged wait.
    The fourth and final problem that our white paper identified was 
the most obvious, and that was the absence of the resources necessary 
to make this incredibly burdensome process function. There were not 
enough consular officers to perform the vastly greater number of duties 
that were now imposed on them. The databases necessary for agencies to 
do the necessary name checks and to communicate with each other did not 
exist. So the visa process just dragged on, while our civil servants 
tried to work around these obstacles.
    Our white paper made specific recommendations for fixing these 
problems with no cost to safety or security indeed, we would argue, 
with a net benefit to safety and security, given that access for 
legitimate students and scholars is itself essential for our security. 
I have appended the white paper to my testimony, so you can review 
these recommendations in detail. In summary, we called for State and 
DHS to jointly issue effective policy guidance; for a greater focus on 
those who require special screening, and a faster track for routine 
applications; for the introduction of necessary mechanisms to produce a 
timely, transparent, and predictable interagency review process; and 
for an appropriate balance between resources and responsibilities.
    The white paper attached to my resume also includes annotations 
that state the implementation status of each recommendation, updated as 
of February 18. I am very pleased to say that the State Department has 
worked hard and has been quite conscientious in trying to implement 
most of our recommendations, and a good deal of progress has been made. 
In particular, State has acted to give students and scholars priority 
in the visa process, to improve the transparency of the process, to 
improve training of consular officers, to extend the duration of the 
validity of security clearances so as to avoid having to re-clear the 
same people, and to add 350 new consular positions. Most important, 
State has essentially eliminated unreasonable delays in the processing 
of Visas Mantis cases. We have the leadership of Secretary Powell, 
Assistant Secretary Maura Harty, and her deputy, Janice Jacobs, to 
thank for this. On behalf of my association, I'm very pleased to extend 
those thanks publicly at this hearing.
    However, it is also important to understand that much more remains 
to be done, as is evident from the several annotations to our white 
paper that cite no progress. In particular, we still have no 
articulated visa policy, and the relationship between DHS and State in 
the visa area remains dysfunctional. Congress has--unwisely, in my 
view--written into law 2003 State Department guidance requiring 
virtually every visa applicant be interviewed, a requirement that 
creates unnecessary inconvenience for many applicants and that condemns 
consular officers to spend countless hours in routine, pro-forma 
interviews of people who present no threat. There are still way too 
many applications being sent to Washington for Visas Mantis clearances, 
again adding unnecessarily to workloads and delays. Other possible ways 
that we have recommended to take some of the burden of routine 
processing off the shoulders of consular officers have also not been 
pursued. It is very important not to rest; we need to keep working on 
this.

SEVIS
    The emergency implementation of SEVIS in 2003 was a major challenge 
for colleges and universities. My association strongly opposed 
implementation of SEVIS on an arbitrary, unrealistic timetable, before 
the administering agency was ready, and before the technology on which 
SEVIS relied had been perfected. The challenge was compounded by the 
fact that, in this crucial year, the agency that had created SEVIS--the 
INS was abolished, and responsibility for SEVIS implementation was 
transferred to a new cast of characters in DHS's Bureau of Immigration 
and Customs Enforcement (ICE). You could not have written a worse 
prescription for disaster, and that was pretty much what occurred.
    However, once it was clear that this was going to happen to us, I 
am very proud of the way in which my association and its members rose 
to the challenge of getting it done. 2003 was a year of late nights and 
weekends and cancelled vacations for hundreds of our members at 
colleges and universities across the country who bore the 
responsibility for inputting the required international student data 
into SEVIS notwithstanding the fact that the technology for 
accomplishing this did not work. I am also proud of the close 
partnership that we developed with ICE during this crisis year a 
partnership that continues to this day. NAFSA worked virtually daily 
with ICE to address the problems that arose. Although we are very far 
from where we need to be, we have weathered the worst of the crisis. We 
can report that a system for monitoring every international student and 
exchange visitor in the United States--the only population so monitored 
is now in place, warts and all.
    Let me address first some of the positive things that ICE has done 
to help us get where we are today. ICE's first accomplishment was its 
response to the deadline for entering all students and exchange 
visitors into SEVIS. There was much trepidation as the August 1, 2003, 
deadline approached because, though the schools had worked tirelessly 
to create all the necessary records, some users had missed the 
deadline. ICE anticipated this eventuality and instituted SEVIS 
Response Teams to assist students arriving in the United States that 
fall. ICE worked closely with other DHS bureaus, schools, exchange 
programs, and the students themselves to resolve problems that arose at 
ports of entry due to incomplete SEVIS records.
    In those early days of SEVIS implementation, there was a glitch in 
the system that did not allow the transfer of all SEVIS data to the 
State Department. Students and exchange visitors who had SEVIS records 
were being turned away at the consulate because consular officers could 
not issue visas if they could not access the SEVIS record. While 
working towards correcting the underlying technological issue, ICE 
implemented a system to allow students and exchange visitors to email 
the SEVIS Help Desk to correct the problem.
    As technological and system function problems have been identified 
by the agency or from collaboration with the SEVIS user community, ICE 
has made improvements through a series of new software releases. This 
process is ongoing, with two more releases already on the horizon.
    Changes in the SEVIS process were required to prepare for the 
September 1, 2004, deadline to implement the SEVIS fee payment. The 
higher education community was quite concerned about the ability of 
international students to pay this fee by the two means allowed (check 
or credit card). ICE worked with the community to assess the possible 
challenges, while also creating a third alternative option for fee 
payment. To date we have not heard of significant problems with 
implementation of the fee although the existence of the fee itself does 
not help our competitiveness, considering that no other country imposes 
a comparable fee.
    The SEVIS fee payment system is an excellent example of an area 
where ICE continues to excel--outreach. I'd like to acknowledge ICE for 
its efforts in working with the international student and exchange 
visitor communities. From day one, ICE has been very responsive to our 
concerns, and this partnership has been instrumental in the progress 
that has been made.
    However, serious problems remain. The three main areas requiring 
resolution are coordination within DHS and with other agencies, 
correcting SEVIS data, and reinstatement of status.
    Although SEVIS is housed in ICE, the data in the system are entered 
by different groups of people, uploaded from and to other databases and 
systems, and relied upon by a number of different agencies. This 
requires a high level of coordination within DHS and between federal 
agencies--a level that has not yet been met. Decisions that require the 
input of more than one agency often languish, which is especially true 
in areas requiring ICE and the State Department to collaborate. 
Decisions regarding the delegation of authority for SEVIS policy must 
be made to ensure the efficacy of the system.
    Accuracy of the data in SEVIS is of paramount importance, but 
because the data are entered by people--millions of entries per year--
data-entry errors are inevitable. The present process for correcting 
the data is unworkable. Backlogs and protracted delays in correcting 
the data mean that SEVIS maintains incorrect records for months at a 
time in some instances. Changes in plans (for example, a student who 
was to return home after graduation decides to stay and enter a Ph.D. 
program instead) or minor issues (for example, an incorrect notice to 
an international student advisor that that a student has dropped below 
a full course load) can precipitate a months-long process to correct a 
SEVIS record.
    Complicating the system, there is no direct link between records of 
pending data fix requests and existing SEVIS records. This means that 
an international student, scholar, or exchange visitor who is in status 
but has a data fix pending may be in jeopardy of enforcement actions, 
denial of entry, or denial of a benefit. Without a connection between 
the two, agencies that have access to SEVIS data are not made aware of 
pending data fixes. International students and scholars who are in 
compliance with SEVIS requirements but have a pending data fix request 
are often afraid to leave the United States, even to return home for a 
short visit, for fear that the incorrect information will lead to 
problems returning to the country.
    Data-fix requests for exchange visitors--those who are here on J 
visas--have an additional layer of complication. All data fix requests 
are made to ICE's SEVIS Help Desk. Those pertaining to exchange 
visitors are then transferred to the State Department for a decision on 
the requests. State then informs the ICE of its decision and the 
correction is made by ICE within SEVIS. This process has caused 
extended delays in corrections in SEVIS for J visa holders, due 
principally to the failure of the State Department to devote the 
necessary resources to the problem, with some now pending for over a 
year. And bear in mind that for that entire time, these people are 
technically out of status, even though they have done nothing wrong. I 
must tell the subcommittees in all candor that I think it is 
irresponsible for these two agencies to pass the buck for solving this 
problem back and forth while the exchange visitors remain in legal 
limbo.
    Additionally, technical problems with SEVIS record maintenance have 
created a new category of immigration status violation for 
international students, scholars, and exchange visitors who have not in 
reality violated status. For example, if a student's SEVIS record is 
incorrectly terminated, that student must file for a reinstatement of 
status with the United States Citizenship and Immigration Services, 
with an additional fee to be paid by the student, even though the 
termination was in error.
    The solutions to these problems are not difficult. The problems are 
the result of bureaucratic dysfunctionality, not the intractability of 
the problems themselves.
    The beginning of the solution is to recognize the difference 
between SEVIS status and immigration status. Violation of immigration 
status is a serious matter requiring reinstatement of status. The 
petition for reinstatement is made to DHS's Bureau of Citizenship and 
Immigration Services (USCIS). Treating SEVIS record glitches as 
requiring reinstatement of status is inappropriate overkill. It 
requires USCIS to process multitudinous reinstatements that are not 
really reinstatements at all, but merely data fixes, and it requires 
additional work by the student or scholar as well as payment of another 
needless fee. Data fixes should be done by ICE or the SEVIS users.
    The solution to maintaining correct data in SEVIS requires two 
significant changes: first, granting schools and exchange visitor 
programs the authority to correct SEVIS data errors, and second, 
creating a coordinated policy for SEVIS record correction without 
distinction between J, F, or M records.
    Allowing authorized SEVIS users to correct errors in SEVIS will 
free ICE from the mundane job of fixing data and, therefore, accord the 
agency more time to focus its resources on enforcement efforts that 
target those who have truly violated immigration law. Hiring more 
people to man the SEVIS Help Desk, creating bureaucratic work-arounds, 
or passing the buck to another bureau, are not constructive approaches. 
The answer lies in relying on the authorized SEVIS users to fully 
maintain the records they create.
    The ultimate goal is to have the most accurate data in SEVIS. 
Presently, the split in authority over data corrections stands in the 
way of this goal. Though the State Department has jurisdiction over 
exchange visitor programs (J visas), there must be a coordinated policy 
to ensure that all records have the most accurate data. Moving forward, 
State and DHS must work together to create policies that apply to all 
visa types represented in SEVIS to ensure the system is optimally 
effective.
    NAFSA is encouraged by the improvements that ICE has made within 
SEVIS, by the current work to continue to improve it, and by the 
commitment to working with the SEVIS user community. But we are a very 
long way from where we need to be. I hope that the subcommittees will 
continue their oversight until the necessary improvements are made.
The Need for a Comprehensive Strategy on International Students
    Let me conclude by stepping back and looking at the bigger picture. 
There is no question that America's reputation as an attractive place 
for international students to study took a big hit after 9/11'due 
partly to visa issues, partly to SEVIS issues, and partly to broader 
factors that affected our overall image in the world. The most affected 
fields were the scientific fields, because of increased concern post-9/
11 about foreign access to advanced science and technology. The most 
affected countries and regions were China, because most Chinese 
students want to study science, and the Middle East, because of 
increased scrutiny of Arabs and Muslims. But the effects were not 
limited to these fields and these countries; they were across the 
board.
    The question to which no one knows the answer is: Is this a 
temporary blip, or the beginning of a longer-term trend? And of course, 
we won't know for some years. But that doesn't mean we do nothing until 
definitive data are in. No business that ignores signs that it's losing 
its market until it has definitively lost its market will be in 
business very long.
    We do know that we face a long-term trend of increasing 
competition, both from other receiving countries and from the 
development of educational infrastructure in the sending countries. The 
international student market is going through a period of rapid change, 
which makes prediction difficult. Interestingly, as the market 
diversifies, our traditional competitors--the United Kingdom, Canada, 
and Australia are facing come of the same challenges we are. Following 
are some characteristics of this rapidly changing market.
    Customers are becoming increasingly demanding and discriminating. A 
growing number of resources are readily available for students across 
the globe to compare the merits of different countries competing for 
international students. Students looking to study in a foreign country 
are more educated on their options and are more able to balance the 
benefits they are looking for, be it lower cost, a prestigious degree, 
better job opportunities in the home country or abroad, or immersion in 
a specific country's culture.
    Trends in Chinese education are very important. Analyses of 
enrollments in Australia, Canada, and the United Kingdom all include 
reference to the impact of Chinese students in prior growth and concern 
about present dramatic drops in Chinese enrollment in Canadian and the 
British schools. Importantly, five years ago China reacted to the 
intense competition for spaces in the Chinese higher education system 
and instituted reforms that increased the number of slots available. 
Chinese law was also changed to require state-owned banks to provide 
interest-subsidized loans to students to help cover education costs. 
Both of these government actions have made the prospect of education at 
home more attractive to Chinese students. Additionally, a growing 
number of Chinese students who study abroad are finding it difficult to 
find employment when they return home after studies. Employers find 
large numbers of job seekers who have studied abroad and now place a 
bigger premium on finding applicants with experience working abroad. 
Study abroad is expensive, and without the promise of a good job upon 
returning home, more Chinese students are choosing to stay home and 
take advantage of new government programs.
    Growth in non-traditional markets. A growing number of countries 
have begun to see the value of the international student market. There 
has also been an increase in non-traditional countries--Finland, 
France, Japan, Singapore, Germany, and Poland--offering English 
language programs, which increases their competitiveness in the 
international student market. (By contrast, the U.S. intensive English 
industry is in rapid decline because of visa problems, the SEVIS fee, 
and other factors.) Continued growth in international students is 
projected for the Asian markets, and many of those countries are 
encouraging students to stay home for their education while encouraging 
students from other Asian countries to study there. For example, Japan 
has grown to be the top destination for Chinese students. Singapore is 
actively marketing itself in countries like India and Indonesia. German 
universities have begun to offer degree programs in English and 
partially subsidize international student enrollment. The non-
traditional markets offer an increasing quality of education at a far 
lower cost than countries like Australia, Canada, and the United 
Kingdom.
    Despite the dynamism of the market and the challenges it presents 
for the traditional destinations, this is a competition in which we can 
do well but only if we compete. We have internationally recognized 
universities, and we have by far the greatest higher-education capacity 
in the world. But the days are long gone when we could just sit back 
and wait for the students to come. The stakes are too high. If we have 
a national interest in continuing to attract international students--
and the consensus is that we do--then we require a national policy for 
doing so.
    Two years ago, my association released the report of its task force 
on international student access, entitled, ``In America's Interest: 
Welcoming International Students.'' This report is appended to my 
testimony. Our task force recommended a comprehensive national strategy 
for attracting international students.
    Our use of the phrase ``national strategy,'' as opposed to 
``government strategy,'' was deliberate. We do not believe that this is 
something government has to do for us. We believe higher education 
institutions, their associations, and the private sector must all come 
to the table and commit resources to such a strategy. But the 
leadership of the federal government is crucial. The whole concept of a 
national strategy is an oxymoron unless our national government brings 
us together to devise it and to agree on how to implement it. And there 
are some things that only government can do: Only the government can 
provide for coordination of the efforts of federal agencies, which is 
now entirely lacking; only the government can change the visa 
requirements.
    We have called upon President Bush to convene a stakeholder 
conference for the purpose of launching such a national strategy. His 
message should be: All the stakeholders can come to the table, but 
every stakeholder has to bring something to the table. And then we need 
to go back home and get it done. We would value the support of the 
subcommittees, and Congress as a whole, for this proposal.
    That concludes my statement. I will be pleased to respond to 
questions. Thank you.
                                 ______
                                 
    Mr. Tiberi. Thank you, Mr. Bell.
    Doctor?

   STATEMENT OF DR. C.D. MOTE, JR., PRESIDENT, UNIVERSITY OF 
                   MARYLAND, COLLEGE PARK, MD

    Dr. Mote. Thank you very much, Mr. Chairman. I would just 
like to say at the outset that I concur completely with your 
opening remarks, Congressman Tiberi and also Congressman Kildee 
and Hinojosa also, as well.
    My name is Dan Mote, as Congressman Van Hollen told you, 
I'm here representing not only the University of Maryland but 
also the American Association of Universities, the group of the 
largest research universities in the country, including Ohio 
State, by the way; the American Council on Education, of which 
Britt Kerwin is the president at the moment; and the National 
Association of State Universities and Land Grant Colleges.
    I won't talk about security being our top priority or how 
we want to attract the best and the brightest. I think that's 
been repeated often enough at the moment because of the limited 
time. Let me just point to this alarming decline in graduate 
applications. Twenty-eight percent nationally last year, 5 
percent nationally this year. By the way, 37 percent last year 
at the University of Maryland, and 5 percent this year at the 
University of Maryland.
    Out of 3,500 universities and colleges in the country and 
about 200 major research universities in the country, this is a 
very serious problem. The Educational Testing Service in fact 
said ``the bubble has burst on foreign student enrollments.'' 
It pointed out that expected registrations for the GRE exams 
required for most graduate programs would be down 50 percent in 
China, 43 percent in Taiwan, and 37 percent in India.
    Of course, as was mentioned by my colleague to the right, 
Canada, Australia, and Europe are taking advantage of our 
unfriendly circumstance here to promote recruiting of graduate 
students very successfully. And while the worldwide population 
of graduate students has increased, our absolute numbers have 
decreased. And I would like to suggest that the problem isn't 
the number of graduate students. So as you check the numbers of 
graduate students, we could fill our country up with graduate 
students.
    The problem is getting the best and the brightest of the 
graduate students out there to come here. So look for the best 
and the brightest. Don't look for absolute numbers. Because as 
a percentage, as our student population goes down, and as the 
world population of graduate students goes up, we can just 
count on the fact we're getting a lesser quality graduate 
student on average coming to our country, which should alarm us 
all.
    I'd say the three reasons I have found for this decline in 
graduate populations, one of them is partly our fault, and two 
are not our fault except in our absence of adequate response.
    The one that's probably partially our fault is the visa 
difficulties and the unfriendly atmosphere that we have 
created, and I'm not suggesting we shouldn't have done so. But 
nonetheless, it's been within our charge. We've talked about 
that.
    The second is the aggressive competition elsewhere in the 
world and the attractive sponsorship for graduate students 
applied to this population by other countries. The United 
States graduate schools have not been aggressive in the 
recruitment of international graduate students. They came here 
because we were the only game in town. They had no choice. No 
matter how badly we treated them, they came anyway.
    That game has changed entirely, and our country hasn't 
quite understood that completely at this point. It's a very 
competitive environment now, and we need to be more effective 
in our competition against people who are using our security 
circumstances to essentially convince graduate students to go 
elsewhere, and they are. There are more Chinese graduate 
students in Europe than there are in the United States at the 
moment.
    Third, countries around the world are working effectively 
to retain their own students instead of having to go abroad. 
They realize that there's no benefit to them to send their best 
students to the United States or to other countries around the 
world if they want to build their own economies. And since 3 
billion people have joined the market economy in the last 15 
years, and since everybody wants to build a great market 
economy these days and build great graduate schools, many 
countries around the world are seeing the necessity of keeping 
their own talent at home.
    In Taiwan, for example, before a student can go overseas 
for graduate study, they must complete their military service 
first. However, if they go to graduate school in Taiwan, they 
are exempt from military service, a subtle difference shall we 
say. In fact, last fall I was invited by the president of 
National Central University in Taiwan to speak to their 
students about why it was important for them to have graduate 
education. You can think about the implications of that. In my 
lifetime, I never thought I would be asked that question.
    The SEVIS system works reasonably well. The batch 
processing system ties into our data bases. It actually works 
very well. They are to be congratulated. There are a couple of 
things that need correction, however. As has been mentioned 
twice, the automation of the system works well until errors 
occurred. And I won't go into what the problem is. There needs 
to be a fix where a designated official at the university can 
make these changes, and they can report back to SEVIS what the 
changes are in due course, and that would work.
    Second, SEVIS does not report back to universities when 
changes in immigration status of students occur. So whether 
they get a green card or whether they go home, the universities 
never find that out, and we end up tracking students when we 
shouldn't be.
    Visa processing has improved greatly, as has been said, and 
we agree with that. However, the difficulty for returning 
students has been talked about, it remained very great. My own 
graduate student, by the way, Chinese graduate student, went 
home in December to see his parents and could not return until 
the end of February because of visa processing.
    We had another graduate student, a Colombian man--when his 
Danish wife went to Colombia in December and could not return 
until the middle of February for reasons of visa qualification.
    Whether it's necessary or not, I don't really know. I can't 
imagine at the moment that they are in these cases, but there's 
a certain fear of not being able to return at all, and 
therefore, all the conversations about discouraging scholars 
from going overseas or coming here to begin with and the 
unfriendly atmosphere are all very true, and they are true 
today. And this may be part of the declining atmosphere for 
graduate students in the United States.
    Scholars in general outside of students have difficulty 
getting visas. So the problems of scholars coming to do work 
with our universities remains difficult. That has not been 
solved.
    A couple of recommendations to consider. I think we should 
pursue changes in the visa reciprocity agreements where we 
could have multiple entry and longer duration of visas with 
other countries.
    Second, we definitely must work on a growing perception 
that the international students and scientists and scholars are 
really unwelcome in this country. That still persists.
    Third, we must talk about extending improved visa 
processing to visiting scholars and technical research visitors 
to this country.
    Fourthly, we might consider extending the Visas MANTIS 
clearance to 3 years instead of 2 years for a more welcoming 
and friendly environment. They're probably not less qualified 
for the extra year than they are for the first 2 years.
    And as has been suggested, for many visitors on valid visas 
to take courses at universities, at least some courses, like 
English language courses, would be very helpful I think to our 
country and to our universities and to the friendly atmosphere 
we want to create.
    I think this whole trend in graduate applications is really 
dire for our technical enterprise. Just as a point of 
observation, we have 193 members of the faculty in our College 
of Engineering. One hundred and one of them are foreign-born, 
U.S. educated; the dean, foreign-born, U.S. educated. Fifty-two 
percent of the graduate students are foreign-born. In our 
science colleges, 45 percent of the graduate students are 
foreign-born. Both deans, foreign-born, U.S.-educated.
    I mean, this is fairly typical across the United States. If 
we start getting lower quality people and fewer of them, in 
this market economy that we're in, we're in tough shape in this 
country--our security is in tough shape, and certainly our 
economy and way of life is in tough shape.
    Competitors are emerging daily: China, Korea, Japan, 
Australia, India, EU, Russia. You cannot name a place in the 
country that's not building a great--anyway, we have to 
realize, we're in a competitive fight here, and it's very, very 
tough, very tough. And so we need to get our own barriers--get 
out of our own way as much as we can and preserve our security.
    And corporate America is not going to come to save us. 
Corporate America is now corporate world.
    Mr. Tiberi. Doctor, can you wrap up?
    Dr. Mote. I've wrapped up.
    [The prepared statement of Dr. Mote follows:]

 Statement of Dr. C. D. Mote, Jr., President, University of Maryland, 
                     College Park, College Park, MD

    Chairmen McKeon and Tiberi and Subcommittee Members:
    My name is Dan Mote, and I am president of the University of 
Maryland at College Park. I appreciate the opportunity to testify at 
this joint hearing of the House Subcommittees on 21st Century 
Competitiveness and Select Education on an issue of concern to the 
entire higher education community, the impact of the Student and 
Exchange Visitor Information System (SEVIS) program and other foreign 
student visa-related issues on this nation's academic and research 
enterprise.
    Because of the interest in this issue, I appear before you 
representing the Association of American Universities (AAU), the 
National Association of State Universities and Land-Grant Colleges 
(NASULGC), the American Council on Education (ACE) as well as the 
University of Maryland. The entire higher education community believes 
that SEVIS is only one part of a broader problem in the post-September 
11 environment for international students and scholars in the United 
States.
    Protecting our citizens is the top priority. Universities and 
colleges are committed without reservation to serving this interest. To 
that end, we fully support careful scrutiny of those entering the 
United States, including those who will study and conduct research. We 
also have an historical responsibility to deliver the highest quality 
education and research programs that keep the nation strong and 
competitive. This goal is under its greatest challenge in half a 
century.
    Our nation and its colleges and universities pride themselves on 
attracting the world's brightest students. Their presence in science 
and engineering has helped make the United States the world leader in 
technology and innovation. We are deeply concerned that America is in 
danger of losing the edge in brainpower and other advantages we have 
enjoyed since World War II as a result of our diminished opportunity to 
attract these students and scholars.
    At the same time, those who have studied in the United States serve 
as our nation's best ambassadors. The opportunity to learn about our 
democratic form of government, our history, culture, and values fosters 
an understanding and admiration of our country that is more crucial 
than ever. Undue restrictions that hinder our ability to recruit 
outstanding talent from other nations threaten our technical and 
economic strengths and also our diplomatic efforts as well.
Alarming Decrease in International Students at U.S. Universities
    Over the past year, media reports have highlighted the alarming 
decreases in the applications and enrollment rates of international 
students at our colleges and universities. International applications 
at the University of Maryland were down 37% last year and another 5% 
this year. Nationally, these decreases are 28% and 5% respectively.
    The Educational Testing Service (ETS) analysts declared recently 
that the ``bubble has burst on foreign student enrollments.'' The 
number of international students registering in 2004 for the Graduate 
Record Exam (GRE), which is required for admittance to most graduate 
programs in the United States, was predicted to drop by 50% for Chinese 
students, 43% for Taiwanese, and 37% for Indians. Reforms in the 
administration of the test in China and elsewhere account for some of 
that decrease, but the drop in registration occurred in all countries--
a clear indication that international students are turning away from 
American schools while universities in Canada, Australia, and Europe 
are increasing enrollments.
    We believe the decrease in international student applications and 
enrollment is due to interrelated factors:
    <bullet>  First, increased difficulties obtaining visa approval 
from the United States following 9/11, along with implementation of the 
SEVIS program, have contributed to a perception that international 
students are no longer welcome here;
    <bullet>  Second, other nations have seized this opportunity to 
recruit the most talented students to their universities; and
    <bullet>  Third, countries that have sent many students here are 
working to keep their students at home with better opportunities for 
research and post-graduate jobs as well as policies intended to squelch 
what they perceive to be a brain drain to the United States.

Assessment of the Student and Exchange Visitor Information System 
        (SEVIS) and Recommendation for Improvement
    After a difficult initial implementation, the SEVIS system appears 
to be working reasonably well. At Maryland, the batch system within 
SEVIS ties into our University database, due in large part to the 
extraordinary effort of our Office of International Education Services 
and our technical people.
    Problems with SEVIS are mainly related to technical matters and 
costs.
    Correction of Errors: Automation of the system works well until a 
technical or human error occurs. Personnel at the University are not 
able to correct errors, even those that mistakenly put a student in 
violation of SEVIS status, but must request immigration personnel to 
correct them. The correction can take months, and often students 
graduate before the ``fix'' occurs. SEVIS does not have sufficient 
personnel to deal with these corrections.
    Recommendation: SEVIS should qualify a Designated School Official 
at each institution to correct technical errors and report the changes 
on a specific schedule.
    Colleges and universities have paid substantially to support SEVIS, 
both in personnel costs and in building sophisticated web delivery 
systems. At Maryland each international student requires verification 
of information including course enrollment each semester in order to 
meet the reporting requirements of SEVIS. The international student 
advisers spend all their time ensuring that the University and students 
are in compliance with SEVIS. They have almost no time for counseling 
or enhancing the experience of international students on the campus. 
The burden is very high.
    The problem of payment of applicant fees has been addressed 
satisfactorily by the DHS Bureau of Immigration and Customs Enforcement 
(ICE), and we appreciate their cooperation in this area. The $100 fee, 
though necessary, is a burden. At the University of Maryland, we 
believe the fee makes the difference in a student's accepting an offer 
of admission. We consider it so serious that we commit $50,000 a year 
to ensure that this fee will not prevent top international students 
from enrolling at the University.
    Finally, our Office of International Education gets no reports back 
from the SEVIS system. It would be extremely helpful if SEVIS would 
provide universities with regular statistical reports reflecting 
activity of students and notification of changes the students make to 
their immigration status outside the institution, for example, 
achieving permanent resident status, which would allow us to delete 
students we should no longer be tracking from the system.

Improvements to Visa Processing
    I have briefly outlined the dangers to our nation if we fail to 
attract the best talent internationally to our universities. The media 
and the federal government have highlighted the difficulties 
international students have experienced with respect to visas, 
including the lengthy delays that visa applicants have endured.
    Because the problems were so great and the implications so 
troubling, in May 2004 under the auspices of the Association of 
American Universities and the American Association for the Advancement 
of Science, the major national associations representing the academic 
and scientific communities in the United States submitted to government 
and congressional leaders a statement with recommendations for 
alleviating a number of the problems with the U.S. visa system without 
compromising national security. This statement is attached. Because of 
the cooperation between academia, the scientific community, and the 
Administration, as well as strong interest and pressure from many 
members of Congress, several recommendations offered last spring have 
been adopted and others are under review.
    On behalf of the higher education community, I want to thank the 
Administration, especially the Departments of State and Homeland 
Security, for welcoming our suggestions and working with us to address 
many of our concerns.
    As a result of the adoption of recommendations and other actions by 
the Departments of State and Homeland Security, the visa process has 
improved. Last month, the GAO noted that the average time to process a 
Visas Mantis clearance is approximately 14 days, down from the 67 days 
it took a year before. The State Department has increased resources to 
cut processing time, and it was recently announced that the length of 
Visas Mantis Clearances has been extended so that international 
students working in certain science and technology fields will not have 
to undergo repetitive security checks. The State Department's 
appointment system giving priority to students helped get students into 
the Consulates. At Maryland we had many fewer visa problems this year 
than last year.
    The visa application process is still disruptive to people in 
continuing programs. We and other universities have many students in 
graduate programs who are reluctant to return home because they might 
not be able to return by the following semester. A couple at Maryland 
in agricultural economics was caught in Bogot , Columbia when they went 
home for a vacation. The husband was Columbian, and the wife was 
Danish. Both were in the middle of their courses of study and had been 
required to obtain security clearances, which they did. They left in 
December and could not get back into the country until a month into the 
Spring semester.
    Our Chinese students are reluctant to go home because they are 
required each time to obtain a new visa before they can return. At 
Maryland we have over 800 students from the People's Republic of China. 
Some of them need to go home for research, emergencies, or for family 
reasons. Their perception is they may not get a new visa. If they do 
get a new visa, they may be subject to arbitrary delaying procedures. 
My doctoral student in mechanical engineering made the apparent mistake 
of visiting his parents in China during the winter break. He left this 
country for China in the last week of December and was scheduled to 
return at the end of January for the beginning of the Spring Semester. 
Before renewing his visa, the U. S. Embassy requested extensive new 
descriptions of his research (he took with him a one-page description). 
Then another document was required verifying that he was still enrolled 
in the program. After lengthy delays and numerous interchanges, he 
returned to Maryland on February 21st, a four-week delay. 
Unfortunately, this is a success story.
    Is there any merit to these delays for students who have already 
been cleared to study in the United States? Word spreads. Once the 
pipeline closes or is severely restricted, it may dry up completely. We 
already know that students and scholars who have experienced 
significant delays or hardships as a result of changes to the U.S. visa 
system tell others coming along not to bother applying here. The United 
States does not want you. The international students and scholars we 
keep out, or scare away, today will be the world's leading scientists, 
engineers, and doctors of tomorrow. In past years they chose to make 
the United States their destination, much to our benefit.

Recommendations
    1. The government should pursue changes in visa reciprocity 
agreements between the United States and key sending countries, such as 
China and Russia. Current reciprocity agreements with some countries 
require students and scholars to renew their visas multiple times 
during their stays here, because U.S. citizens are subject to similar 
restrictions in those countries. We should seek to extend the duration 
of visas each country grants citizens of the other and to permit 
multiple entries on the same visa.
    This change would significantly reduce the number of times that 
visiting international students and researchers must renew their visas 
and would permit the government to focus its limited security resources 
to clear persons seeking to enter this country for the first time and 
not on repeat visitors who have been already screened.
    2. We must fight what appears to be a growing perception that we no 
longer welcome international students, scientists, and scholars. Our 
nation must make it clear that the U.S. treasures international 
scholars and scientists. The problem is broad based and attention must 
be paid to all groups of scholars and scientists who were so welcome in 
our universities in previous times.
    3. The very helpful improvements made in the processing of student 
visas have not been extended fully to visiting scholars and scientists. 
I strongly urge that this be the next step.
    4. In particular, visa mantis clearance should be extended to 
visiting scholars for up to three years instead of the current two.
    5. We regret also that people in the United States on valid 
visitors visas are no longer allowed to take any courses at university 
or colleges, not even English language, and we urge reconsideration of 
this prohibition.

Conclusion
    We need to remind ourselves that three billion people have joined 
the worldwide, free-market, knowledge-based economy in the past 15 
years. The competition for human capital is absolutely fierce. Our 
economic future and security depend on our successful competition for 
human capital.
    If the trend in international student applications is not reversed, 
the implication for the future of our science and technology enterprise 
is dire. Consider the extent to which our research universities have 
depended on our past open-armed welcome of the best talent from other 
countries. In our top twenty school of engineering we have 193 tenured 
tenure/track faculty; 101 of them are foreign born. The vast majority 
did their graduate work in the United States. Currently, 52% of our 
graduate students in engineering are foreign born. The Deans of the 
Colleges of Life Sciences, Computer, Mathematical, and Physical 
Sciences and the A. James Clark School of Engineering are foreign born 
and U.S. educated, and 45% of science graduate students are foreign 
born.
    These data are not an aberration. One only needs to extrapolate to 
the engineering and science schools throughout the country to get a 
sense of the enormous impact fewer international students would have on 
the nation's research and technology enterprise. Consider the lost 
opportunity by not attracting the right people, the most talented 
people to work in our industrial, commercial, educational, and research 
enterprises. Other nations are competing effectively for those 
scientists and will gain technological advantages, weakening our 
economic and technological position and our security.
    New contenders in the fiercely competitive environment of higher 
education emerge daily. China has set a goal to greatly increase over 
the next decade the number of universities, and some will be of world-
class stature. Taiwan and Japan also plan to build top universities. 
Though most of the world's top universities are currently in the U.S., 
many are determined to change this balance, and they probably will. To 
remain competitive in the coming decades, we must continue to embrace 
the most capable students and scholars of other countries. Our security 
and quality of life depend on it.
    I thank you again for this opportunity to appear before your today. 
I would be glad to answer your questions.
                                 ______
                                 
    Mr. Tiberi. Thank you for your very emotional testimony as 
well. We obviously can see that you're very concerned about it.
    I'm going to go a little out of order and recognize the 
gentleman from Texas.
    Mr. Hinojosa. Thank you, Mr. Chairman. I appreciate that 
you allowed me to ask a couple of questions and excused me 
because there are Committees that are meeting now and I'm going 
to have to be excused after I have this dialog with Mr. Bell 
and Dr. Mote.
    My first question is to Lawrence H. Bell. SEVIS technology 
has improved over the last 2 years, but why do you think that 
basic administrative and coordination functions persist?
    Mr. Bell. It's my impression, and thank you for the 
question. We see the interactions between the various agencies 
at DHS, at least from our perspective. There are a great deal 
of data fixes waiting to be processed, and many of those data 
fixes end up throwing students out of status. When the student 
is out of status, he or she needs to apply for reinstatement to 
status. That creates more work for the citizenship and 
immigration service part of DHS. And there doesn't seem to be 
very good communication, again from our perspective, between 
those two parts of that agency.
    It's also the case that a number of the data fixes that are 
waiting to be processed are--and data fixes, by the way, are 
waiting as I understand it, in the thousands. Certainly we have 
a number of them that have been waiting for months. So the data 
fixes that are waiting, some of them are also for exchange 
visitors, and exchange visitors must be processed by state.
    And so there is not a good communication, again from where 
we sit, there's not good communication between State and 
Homeland Security on data fixes, and that creates a problem for 
us.
    Mr. Hinojosa. Would it help if some high-ranking person 
from the administration were to ask Homeland Security agencies, 
be they Customs or Border Patrol, whatever section needs to get 
involved, for them to give this a higher priority?
    Mr. Bell. That would be a very big help for us, because it 
would encourage the cooperation between agencies that we 
thought was going to come as a result of SEVIS simply being 
implemented.
    Mr. Hinojosa. I thank you for your response. I'd like to 
ask Dr. Mote, Jr.--and before I ask my question, sir, I want to 
say it's refreshing to hear someone who knows and understands 
this problem we're discussing as well as you do, and that you 
not only give us your point of view, but you give us some 
things that we should be looking at as possible solutions.
    So let me say that for many foreign students, the U.S. 
intensive English language programs have been crucial for their 
academic success. My area, University of Texas schools along 
the Texas border, be that at Edinburg or at Brownsville or El 
Paso, have expressed their concerns. And they're asking us 
why--find out why you think that this sector is in rapid 
decline and how this can be reversed.
    Dr. Mote. If I understand that question correctly, we 
certainly need to open up our opportunities for education for 
international students, and the programs--I was referring to 
programs for visitors who are here on valid visas who would 
want to participate in courses at universities. Right now, if I 
understand this correctly, they were not allowed to do that. 
We're not allowed to give English language courses and various 
courses to visitors who are not here on student visas.
    And so I think it's very important for our country, not 
only the friendliness of our country, but also as a service to 
building a better understanding of democracy and our values to 
be able to serve the various populations that are here.
    Mr. Bell. If I might contribute to the answer.
    Mr. Hinojosa. Yes. If you want to chime in, Mr. Bell, 
please do.
    Mr. Bell. My first 15 years in the business were spent as 
an ESL teacher and program director. It's an area that I'm 
still very familiar with.
    I think one of the issues is that it is possible for people 
to come to the United States for short periods of time on a 
tourist visa, for example, and those people can't enroll in an 
English program now because it's prohibited, as he said, for 
them to study while they're on a different visa type. And so 
English language programs are having difficulty filling classes 
because those short-term visitors are gone. It takes too long 
for them to get an F-1 visa through the process that that 
requires. By the time they've got the visa, their need to study 
English has been reduced, and in some cases has diminished 
completely.
    Mr. Hinojosa. OK. Well, I thank you. And Mr. Chairman, 
thank you for allowing me to ask my questions. And it's a 
pleasure to have all of the panelists that we had, first and 
second, and we welcome you back. Thank you.
    Mr. Tiberi. Recognize the gentleman from Michigan.
    Mr. Kildee. Thank you, Mr. Chairman. Thank you very much. 
Mr. Bell, you have mentioned that we have no articulated visa 
policy and that there are severe dysfunctional areas between 
State and DHS. Are you more concerned about administrative and 
technology issues or policy issues?
    Mr. Bell. I guess my concern is in both areas. The policy 
issue would have to do with the fact that there is no 
articulated policy, and we don't--it seems like one hand is 
saying stay away and the other hand is saying come in. And so 
there are some policy issues that I think would clarify that.
    But it is also, in my view again, a communication issue 
between State and DHS in this very important area.
    Mr. Kildee. The fact that there are two different 
departments, does that create a problem or does that help 
checks and balance?
    Mr. Bell. Again, in my view, I think it creates a problem, 
because there is, again, from what I see, it seems like that 
the two are not getting along in this area. And so there's not 
a clear way to know what the direction is.
    Mr. Kildee. As a corollary to that question, we got a 
certain vagueness as to numbers from the previous panel. 
They're kind of baffling and mysterious almost as if they 
didn't want to give the numbers. Can you help us some on that? 
Has the rate of growth, for example, slowed since 9/11, and 
should that be taken into consideration? Has the objective 
numbers increased or decreased? Do you have anything to help 
clarify that for the Committee?
    Mr. Bell. I think I can lend some clarity. The numbers that 
he was using, I believe he said they were for F, J, and M 
visas. That would include all J-1 visitors, which are not 
always included in student numbers. It would include M visas, 
which were not included in the report from the Institute for 
International Education that the State Department was using.
    So there are different reports on different visa types that 
may have created the confusion over number. I and my 
association would be happy to provide an accurate list of what 
those numbers are. But they were for different visa types, I 
think is what the issue was.
    But the absolute number, this is the first time that the 
absolute number in 30 years has gone down.
    Mr. Kildee. The absolute number has gone down?
    Mr. Bell. Yes.
    Mr. Kildee. It's more than just a slowing down in the 
growth, then, right?
    Mr. Bell. Correct.
    Mr. Kildee. The absolute number has--
    Mr. Bell. Last year we saw a slowing down in the growth, 
and this year's numbers actually--the numbers were reduced.
    Mr. Kildee. Do you think that in general the system that 
they're working on, and apparently is still in process, is--has 
hope for success to really achieve what we really want as 
policy in this country?
    Mr. Bell. I believe that it does. But again, what we must 
remember is that this is 2 percent of the total population. So 
in terms of understanding where people are within the United 
States, it helps for this 2 percent. We're doing a very good 
job of tracking a very small population. But in terms of will 
the system work and will it provide the information that's 
necessary? I think it has the chance for success.
    But at the moment, it's operational, but I wouldn't call it 
working, particularly with data fixes, there's a huge number of 
data fixes, which means there is inaccurate data in the system 
because somebody's status may have changed, their course 
program may have changed. And so there's a lot of erroneous 
data laying out in the system as a result.
    So it has a chance for success, but at the moment, I would 
say it's not successful.
    Mr. Kildee. Dr. Mote, do you have any comments on any of my 
questions?
    Dr. Mote. No. I think it's fairly clear. I mean, 49 out of 
50 foreign people in this country are not on the system or are 
not students. In terms of overall security, I don't know if you 
really would put your security hopes on a 2 percent fix of a 
potential problem.
    I think the cost here for creating an unwelcoming and 
unfriendly environment is potentially very high, and there's a 
sort of cost/benefit issue that needs to be looked at here. The 
cost to our security, as a matter of fact, and the cost to our 
economy, our way of life.
    I mean, one way to stop traffic deaths, by the way, is just 
to have nobody drive. It's a 100 percent sure fix. And I guess 
if we don't let in any foreign people, we won't have any 
foreign students that get involved in this issue. But there'll 
be another 49 people.
    So I am very much concerned about the risk analysis on 
this. That is, how much we're expending to fix a problem and 
how important is that problem relative to the overall cost to 
our country in the long term.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    Mr. Tiberi. Thank you, Mr. Kildee. And I too share his 
concern, and I think we both agree that we need to go down this 
road and try to work with you all to fix the system, make it 
better, make it more welcoming.
    I want to assure you, and I think Mr. Kildee would agree, 
that the interest in this issue is far greater than the 
participation up here today. There's a lot of other things 
going on, as you've probably noticed walking into the building.
    But we want to assure you that we're going to work with you 
and your associations and your institutions to try to make this 
a better system. Because I think it is for the benefit of our 
country.
    Mr. Bell, thank you for coming. Thank you for your expert 
testimony today, and I look forward to working with you and Dr. 
Mote, thank you, and please give my best to Dr. Kerwin and 
thank him for his leadership. And again, if he wants to come 
back to Ohio, we'd love to have him.
    [Laughter.]
    Mr. Tiberi. With that, I'd like to thank all the witnesses 
today and the members who participated today, as well. And if 
there's no further business before the Committee, the 
Subcommittees stand in adjournment.
    [Whereupon, at 12:47 p.m., the Subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
